<html>
<title> - U.S.-LIBYA POLICY</title>
<body><pre>[Senate Hearing 116-235]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-235
 
                           U.S.-LIBYA POLICY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED SIXTEENTH CONGRESS



                             SECOND SESSION



                               __________

                            FEBRUARY 12, 2020

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       




                   Available via the World Wide Web: 
                         http://www.govinfo.gov
                         
                         
                         
                          ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
40-907 PDF             WASHINGTON : 2020 
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                                (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator from Idaho....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     3


Schenker, Hon. David, Assistant Secretary, Bureau of Near Eastern 
  Affairs, U.S. Department of State, Washington, DC..............     5
    Prepared statement...........................................     6


Robinson, Christopher, Deputy Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    10


              Additional Material Submitted for the Record

Responses of Hon. David Schenker to Questions Submitted by 
  Senator Robert Menendez........................................    29


Responses of Hon. David Schenker and Christopher Robinson to 
  Questions Submitted by Senator Lindsey Graham..................    31


Responses of Hon. David Schenker and Christopher Robinson to 
  Questions Submitted by Senator Benjamin L. Cardin..............    32


Responses of Hon. David Schenker to Questions Submitted by 
  Senator Ted Cruz...............................................    37


Responses of Hon. David Schenker to Questions Submitted by 
  Senator Cory A. Booker.........................................    37


Responses of Christopher Robinson to Questions Submitted by 
  Senator Robert Menendez........................................    39


Responses of Christopher Robinson to Questions Submitted by 
  Senator Ted Cruz...............................................    40


Responses of Christopher Robinson to Questions Submitted by 
  Senator Cory A. Booker.........................................    40


                             (iii)        


                       U.S.-LIBYA POLICY

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Barrasso, Young, Perdue, Menendez, Cardin, Shaheen, 
Coons, Murphy, Kaine, and Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    I want to thank our witnesses for appearing today to 
discuss a topic of growing concern and that is the worsening 
political and humanitarian situation in Libya. Many of the 
reports coming out of Libya are troubling, and recent 
developments warrant attention.
    Libya is in the midst of its third civil war in 9 years. 
This latest round of conflict was triggered last year when 
Khalifa Haftar, commander of the self-proclaimed Libyan 
National Army, launched an offensive against the U.N.-
recognized government in Tripoli just days before the U.N. was 
set to launch a carefully constructed peace conference.
    Months of fighting between his LNA and the internationally 
recognized Government of National Accord, the GNA, have failed 
to yield tangible results on the ground and it remains a 
stalemate.
    Foreign influence has only complicated matters as usual and 
continues to flood Libya with illegal arms and advisory support 
and training, all in direct violation of a U.N. arms embargo. 
These outside actors have a variety of reasons for their 
involvement, and all of them, from the Middle East to Europe, 
often pursue their agendas at the expense of the Libyan people.
    Chief among these actors are Turkey and Russia. Turkey has 
deployed uniformed troops and questionable Syrian-based 
militias to Libya in an effort to pursue its own agenda.
    The GNA recently signed a troubling agreement with Turkish 
President Erdogan that threatens to rewrite the exclusive 
economic zones of both countries, challenging gas exploration 
and the construction of the pipelines between Greece, Israel, 
and Cyprus. Erdogan clearly intends to extend his military 
assistance to Libya as a means to cement Turkish economic 
influence and political control over the eastern Mediterranean.
    Russia, fighting on the side of Haftar, has dramatically 
increased the number of Wagner mercenaries operating in Libya. 
And as we see in Syria, Russia seeks to secure its foothold in 
the Mediterranean and extend its sphere of political influence 
into the Middle East and North Africa. Again, following a 
Syrian model, Putin floods Libya with mercenaries and weapons 
while he simultaneously attempts to supplant the U.N.-led 
political process through sham peace talks.
    We have serious concerns about a Russian foothold in the 
southern Mediterranean where the Kremlin controls the flow of 
refugees and migrants, complicates our CT mission, sows discord 
within the EU, and ambushes an already beleaguered U.N. 
political process.
    Finally, there is the human cost. The fighting has killed 
over 2,000 Libyans with over 150,000 displaced. Military 
activity recently forced the U.N. to close its refugee center.
    The United States remains concerned about a very real 
terrorist threat, particularly ISIS, emanating from Libya. ISIS 
has taken advantage of the instability and increased its 
activity in southern Libya.
    In addition to CT, the U.S. is concerned with seniority in 
an increasingly militarized Mediterranean, a vital corridor for 
international trade. Our NATO allies in Europe remain concerned 
that migration and terrorism will further destabilize their 
countries, causing the kind of disorder that Russia wants and 
will exploit.
    Third, the stability of Libya's natural resources is a 
concern for Libya's sake and for global markets. Oil remains 
Libya's most important avenue to prosperity. Disappointingly, 
Haftar has dramatically reduced Libya's oil supplies in an 
effort to undermine the GNA.
    Aligned with these national security interests, U.S. policy 
should be to proceed along three tracks: support the U.N.-
recognized government, discourage foreign powers from meddling 
in Libya's affairs, and encourage a return to U.N.-led peace 
talks.
    The German-led dialogue convened in January was promising. 
However, countries continue to violate the arms embargo, and 
the ceasefire has been punctuated by violence.
    The most effective way to stop foreign involvement in Libya 
is to end the conflict. I agree with the administration and 
U.N.'s call for countries to live up to their Berlin 
commitments and to comply with their obligations to implement 
the U.N. arms embargo.
    We must also consider the appropriate scope of U.S. 
involvement in Libya.
    As we explore the right tools to support a stable, peaceful 
Libya, I hope our witnesses will shed additional light on what 
leverage the United States has to affect a better outcome.
    And I know the ranking member has strong feelings in this 
regard, and I will yield the floor to you.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    Let me first welcome--since this is the first full 
committee hearing we have had--welcome Senator Perdue back to 
the committee. You had a more privileged position before, but 
we are glad to see you back. So welcome again.
    And, Mr. Chairman, I recognize the start of this year has 
been somewhat unusual. So I want to thank you for holding 
today's hearing. There is a lot important work for us to do and 
a full agenda for hearings for this committee. In particular, I 
look forward to working with you on a hearing on Iran policy, 
as we have discussed and agreed, as well as getting hearings 
scheduled as soon as possible with Secretary Pompeo and 
Administrator Green to review the State and USAID fiscal year 
2021 budget request. Those budget hearings are vital for the 
exercise of our oversight authorities.
    As you know, I have been eager for the committee to take a 
more assertive role in understanding the administration's 
policy towards Libya. As I see it, the administration's 
approach to Libya is emblematic of its overall approach to 
foreign policy. An absence of U.S. leadership, inconsistent 
public statements, and a seeming internal lack of clarity have 
left our partners and allies confused about the U.S. 
commitments and paved the way for our adversaries to advance 
their own interests.
    Military strongmen, militias, tribal politics, migration 
patterns, smuggling networks, and proxy actors have beleaguered 
Libya for years. There are no easy answers.
    But I am not even sure today what questions the 
administration is asking or if they are asking any at all. What 
are the factors driving our policy?
    In early April 2019, Secretary Pompeo expressed deep 
concern about Khalifa Haftar's military offensive against the 
internationally recognized and United States-supported 
Government of National Accord. Two weeks later, following 
reports of attacks on civilians and possible war crimes, the 
White House reported that President Trump had directly praised 
Haftar and discussed a shared vision for Libya's future in a 
telephone call.
    In the meantime, the United States joined Russia to block a 
British-drafted U.N. Security Council resolution calling for a 
ceasefire, a reduction of negative foreign influence, and 
supporting humanitarian access. What message does this send to 
our allies?
    More than 150,000 people have been displaced, thousands 
have been killed. There are reports about potential war crimes 
and violations of humanitarian law. More than 700,000 migrants 
and refugees are stranded in Libya, held captive by violence 
and questionable political agreements that effectively prevent 
them from seeking recourse. And because of ongoing security 
concerns, UNHCR was recently forced to cease operations at a 
facility serving highly vulnerable refugees.
    Haftar and his backers, including the Emiratis, Egyptians, 
and others, have targeted hospitals and migrant detention 
centers. And Russia, as it so often does when the United States 
has ceded leadership, has recently increased its presence, 
deploying mercenaries from the infamous Wagner group.
    With the United States equivocating and the European Union 
split, Turkey has found a deepened foothold for its 
longstanding ambitions in the Mediterranean. In November, 
Turkey and the GNA announced an expanded maritime agreement 
that critical U.S. partners, including Greece and Cyprus, 
called illegal and absurd. The parameters of this agreement 
undermine U.S. policies, partnerships, and security in the 
eastern Mediterranean. Turkish deployment of troops, including 
from Syria, adds to the list of violations of the U.N. arms 
embargo.
    Our absence is a declaration of policy itself.
    So I am hopeful that today we will gain a clear 
understanding of what this administration believes our 
interests are in Libya, what our objectives are, and what 
concrete plans the administration has to achieve them.
    First, fundamentally I believe we must work with our 
partners to reduce the influx of weapons and proxy fighters and 
ensure that Libya does not, once again, become a home for 
international terrorist organizations seeking fertile ground to 
regroup, reconstitute, and threaten the United States or our 
partners.
    Second, we also have an interest in upholding the integrity 
of international humanitarian law and U.N. arms embargoes. If 
we fail to hold our ostensible partners accountable, we are 
sending a devastating message that the United States will not 
use our diplomatic voice or leverage to uphold the integrity of 
the international system. Yesterday's vote in the Security 
Council, however, was a welcome step.
    Additionally, we must look beyond Libya's borders to ensure 
that our partners, allies, and adversaries alike know that the 
United States will stand by its commitments, will embrace the 
international institutions and systems of governance we have 
fought for, and will invest in promoting our own interests and 
security.
    As in Syria, Russia and Turkey are eagerly stepping into 
the void that this administration's equivocation and diplomatic 
retreat creates. They are creating in Libya a world conducive 
to their interests and values, not ours, and that is a much 
bigger problem than just Libya itself.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    For members, we are challenged a bit this morning in that 
we have four votes starting at 10:30, and after discussions 
with the ranking member, we have concluded it would probably be 
best to take a break at the conclusion of vote number one so we 
can go down and vote on the first and the second. And then we 
will come back here, and then after that, rotate out and 
continue on.
    We also have an all-members briefing on the coronavirus 
outbreak at 11:30 in Senate Dirksen 430. It would be my intent, 
though, to continue on with this hearing. I think most of us 
have been in a number of those briefings, but anyone who has to 
attend that, we will certainly understand.
    So with that, let us turn to our witnesses. First of all, 
we will have David Schenker, and David is the Assistant 
Secretary of the Bureau for Near Eastern Affairs. Prior to 
joining the Department of State, from 2006 to 2019, Mr. 
Schenker was Director of the Program on Arab Politics at the 
Washington Institute for Near East Policy. From 2002 to 2006, 
he served in the Office of the Secretary of Defense as Levant 
Country Director advising the Pentagon on issues relating to 
Syria, Lebanon, Jordan, Israel, and the Palestinian 
territories. Mr. Schenker, you are up.

 STATEMENT OF HON. DAVID SCHENKER, ASSISTANT SECRETARY, BUREAU 
OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Schenker. Thank you, Chairman Risch, Ranking Member 
Menendez, members of the committee. I am honored to appear 
before you today to discuss Libya.
    The U.S. has a few interests in Libya: consolidating 
counterterrorism gains, maintaining the free flow of oil, 
blunting a Russian strategic foothold on NATO's southern flank. 
We also have a keen interest in a negotiated solution to 
Libya's civil war.
    Libya is geographically proximate to Europe. It poses 
direct immigration and security challenges to Europe. While the 
U.S. will pursue its interests, it is up to the Europeans to 
undertake their share of the work. Thus, we were heartened when 
Germany established the Berlin Process.
    The best way to advance our interests is to stop the 
fighting and escalating foreign intervention resulting from the 
LNA--the Libyan National Army's--attack on Tripoli. Now is the 
time to wind the conflict down.
    Nearly 700 Libyan civilians have died since these clashes 
began in April of 2019. Nearly 200,000 children were unable to 
attend school. Civil aviation has been under constant threat. 
Hundreds of thousands of Libyans, as well as migrants and 
refugees, have been displaced.
    The near total shutdown of Libya's oil sector since January 
17th by LNA-aligned forces has created a looming humanitarian 
disaster and to date deprived Libya of $1 billion in oil 
revenues. The National Oil Corporation must be allowed to 
operate without interference by armed groups.
    There is no durable military solution to the conflict. The 
U.S. supports the U.N. Special Representative's work to promote 
a Libyan political process. Last week, the U.N. Special 
Representative of the Secretary-General, with strong support 
from the United States convened representatives from the GNA 
and the LNA. For the first time in a year, the two sides have 
engaged on establishing a sustainable ceasefire.
    Negotiations among Libyans need to address difficult 
issues: the dismantling of non-state armed groups--militias 
that operate with impunity--the rooting out of extremist 
elements, the reunification and reformation of Libya's economic 
institutions to ensure equitable distribution of Libya's 
resources. If the violence continues, it will only mean 
hardened positions on all sides.
    Bringing the Libyans back to the negotiating table has been 
complicated by the involvement of external actors. Libya is not 
the place for Russian mercenaries or fighters from Syria, Chad, 
and Sudan. It is not the place for Emiratis, Russians, or Turks 
to fight battles through intermediaries they sponsor and 
support with sophisticated weapons in pursuit of their own 
agendas. Peace and stability across the Mediterranean are at 
stake.
    Last month, I accompanied Secretary Pompeo to the Berlin 
Conference. The Secretary told leaders there--I quote--``there 
are things we can do today to foster a stable, sovereign, 
united country that is inhospitable to terrorists, and 1 day 
capable of generating prosperity through its energy resources. 
We must support a sustainable ceasefire between Libyan parties 
and not just with words. We must take actions to end the 
violence and flow of arms.''
    In Berlin, leaders called for a ceasefire supported by U.N. 
monitoring and rejected foreign interference. Regrettably, some 
participants have not upheld their commitments. All made a 
commitment, however, to halt deployments of personnel, 
fighters, mercenaries, and military equipment.
    Following Berlin, we have joined our voice at the U.N. 
Security Council in support of a draft resolution reinforcing 
the U.N. arms embargo and calling for mercenaries, such as 
those of the Kremlin-linked Wagner Group, to leave Libya.
    We have sanctioned spoilers threatening Libya peace, 
security, and stability, and we will continue to make use of 
sanctions when warranted.
    In 2016, the United States cooperated with the GNA to oust 
ISIS from the coastal city of Sirte. U.S. stabilization 
assistance aims to prevent a resurgence of these terrorist 
groups. U.S. diplomatic engagement with the Libyans is centered 
in Tunisia, the temporary home of the Libya External Office, 
the LEO, our diplomatic representation to Libya led by 
Ambassador Richard Norland and supported by an excellent 
expeditionary diplomatic team.
    Although security concerns have kept us from reestablishing 
a full-time diplomatic presence in Libya, we continue to review 
options to deliver our message from Libyan soil, including with 
day trips.
    Since the overthrow of the Qadhafi regime, the U.S. has 
invested more than $550 million in assistance in Libya, as well 
as more than $164 million in humanitarian assistance. U.S. 
humanitarian response programs support several sectors, 
including health, food, water, sanitation, and hygiene, 
protection, and shelter. And we will continue to use these 
vehicles to bring actors together on both sides of the conflict 
to mitigate the effects of the conflict on the Libyan people.
    We will continue to press upon Libyan leaders and countries 
involved in Libya that the only viable path forward is a 
peaceful resolution that provides inclusive democratic 
governance.
    Thank you for this opportunity to testify today.
    [The prepared statement of Mr. Schenker follows:]

               Prepared Statement of Hon. David Schenker

    Chairman Risch, Ranking Member Menendez, Members of the committee: 
Thank you for this opportunity to discuss U.S. Libya policy. The best 
way to address this crisis is to stop the fighting that started in 
early April with the Libyan National Army's (LNA) military offensive, 
enabled by foreign intervention, aimed at wresting control of Tripoli 
from the Government of National Accord (GNA). Foreign intervention has 
escalated and could escalate yet further in the days to come, posing a 
threat to the international order in the Eastern Mediterranean and to 
U.S. interests in the region. Now is the time to wind this conflict 
down.
    And the best way to stop the fighting is to stop the foreign 
intervention fueling it, in the form of weapons, personnel, and funds.
    Last week, the U.N.'s Special Representative of the Secretary-
General, Ghassan Salame, convened representatives from the GNA and the 
LNA for talks aimed at establishing a ceasefire, beginning with the--
scaled and incremental--withdrawal of foreign mercenaries. This is the 
first time in a year that the two sides of the conflict have engaged 
about an end to the violence. This initial meeting did not result in a 
formal agreement. Sustained efforts will be required to secure and 
implement a ceasefire, and we are pressing both sides to engage 
constructively.
    Nearly 700 Libyan civilians have died since these clashes began in 
April. Nearly 200,000 children were unable to attend school at various 
points in 2019. Multiple health facilities lack supplies and medicine. 
The fighting threatens civilian lives, infrastructure, and civil 
aviation. According to the International Organization for Migration, as 
of December 2019, over 355,000 Libyans have been displaced. The 
conflict has further threatened the already tenuous safety and security 
of foreign migrants and refugees residing in Libya.
    The near-total shutdown of Libya's energy sector since January 17, 
by LNA-aligned forces, has worsened electricity outages across the 
country and severely curtailed civilian access to fuel and other 
refined petroleum products used for cooking, heating, transportation, 
and the delivery of clean, potable water to residential areas. As we 
have communicated to Libyan actors publicly and privately, the National 
Oil Corporation must be allowed to fulfill its mandate on behalf of the 
Libyan people, which it cannot do when armed groups occupy its 
facilities or interfere with its operations. Meanwhile, the Libyan 
people continue to suffer as the country's oil revenues collapse, with 
costs that already exceed $1 billion.
    We have repeatedly emphasized to all stakeholders that there is no 
durable military solution to the Libyan conflict. The United States 
supports the U.N. Special Representative's work to promote a Libyan 
political process. Ultimately, the Libyan people must resolve this 
crisis. Libyan leaders who are contributing to the ongoing conflict--
and those who back them militarily--must establish and respect the 
truce, de-escalate to achieve a sustainable ceasefire, and refocus 
efforts on a Libyan-led political process. Negotiations need to 
seriously address difficult issues driving the conflict, including the 
dismantling of non-state armed groups--``militias''--that operate with 
impunity; the rooting out of extremist elements; and the reunification 
and reform of Libya's economic institutions to ensure transparency and 
the just distribution of Libya's resources. Achieving a political 
solution and moving toward national reconciliation will take time. If 
the violence continues, it will only harden positions on all sides and 
make finding a viable solution more difficult.
    The United States continues to undertake efforts to achieve 
stability in this geopolitically significant, oil rich nation. In 2016 
the United States cooperated with the GNA to oust ISIS from the coastal 
city of Sirte. We continue relationships with counter-terrorism 
partners across the spectrum in Libya to defend and protect it from a 
resurgence of terrorist groups. U.S. diplomatic engagement with Libya 
is centered in Tunisia, the temporary home of the ``Libya External 
Office,'' our diplomatic representation to Libya, led by Ambassador 
Richard Norland and supported by an expeditionary diplomatic team.
    We are conveying to Libyans on all sides of the conflict--as well 
as their foreign backers--that the conflict must be resolved through 
negotiations. We have sanctioned spoilers threatening Libyan peace and 
stability and will continue to make use of those authorities when 
warranted, but there is no substitute for consistent engagement. U.S. 
diplomats work daily with Libyans across the political spectrum to find 
common ground on the issues that divide them. Ongoing security concerns 
have forestalled the reestablishment of a full-time diplomatic presence 
in Libya, but we are represented through U.S. stabilization and 
development assistance programs to help alleviate urgent needs. 
Beginning with short day trips, we are looking at formulas that allow 
us to deliver our message from Libyan soil, where it will have the most 
impact.
    U.S. humanitarian response programs support several sectors, 
including health; food, water, sanitation, and hygiene; protection; and 
shelter. For instance, we have helped equip classrooms for 
schoolchildren in conflict-affected areas, and funded nutrition 
programs for vulnerable populations. Through other stabilization and 
governance programs, the United States supports recovery in conflict-
affected areas to strengthen the local conditions necessary to enable 
political compromise, prevent further fracturing of the country, expand 
spaces for moderate actors, and protect security gains made against 
terrorism. We will continue to use these vehicles to bring together 
actors on both side of the conflict.
    Through USAID-led efforts to stabilize Sirte following our 
liberation of the city from ISIS, the United States is implementing 
more than $11 million worth of early recovery activities to meet 
immediate service delivery needs and build the operational capacity of 
key institutions. Since the overthrow of the Qadhafi regime, the United 
States has invested more than $550 million in assistance to Libya, as 
well as more than $164 million in humanitarian assistance.
    The task of bringing the Libyans back to the negotiating table has 
been complicated by the involvement of external actors. Libya is not 
the place for Russian mercenaries, or fighters from Syria, Chad, and 
Sudan. It is not the place for the Emiratis, Russians, or Turks to be 
fighting battles on the ground through intermediaries they sponsor or 
support with sophisticated and deadly equipment in pursuit of their own 
agendas. What is at stake is more than Libya, but peace and stability 
across the southern and eastern Mediterranean region.
    Last month, I accompanied Secretary Pompeo to the Berlin 
Conference. Secretary Pompeo told leaders there, ``There are things we 
can do today to foster a stable, sovereign, united country that is 
inhospitable to terrorists, and 1 day capable of generating prosperity 
through its energy resources. We must support a lasting cease-fire 
between the Libyan parties, and not just with words. We must take 
actions to end the violence and flow of arms.''
    The international leaders gathered in Berlin called for a sustained 
ceasefire, committed to support U.N. monitoring when a formal ceasefire 
is achieved, and to reject foreign interference.
    Regrettably, many Berlin Conference participants have not upheld 
these commitments. All Berlin participants made a commitment to 
implement an immediate and permanent halt of deployments of personnel, 
fighters, mercenaries, and military equipment to Libya. That they have 
not yet respected this commitment reflects the urgent need for them to 
engage with each other to overcome the suspicions and enmities, rooted 
in ideology and politics, that divide them.
    Following Berlin, we have joined our voice at the U.N. Security 
Council in a draft resolution reinforcing the U.N. arms embargo, and 
calling for mercenaries, such as those of the Kremlin-linked Wagner 
Group, to leave Libya.
    It is time for those who continue to violate existing U.N. Security 
Council resolutions--including the U.N. arms embargo on Libya--to face 
consequences. We will continue to impress upon countries involved in 
Libya that a peaceful resolution is not just in our mutual interest, 
but the only viable path forward to end the conflict in Libya. And we 
reaffirm that the United States supports a political solution that 
allows the Libyan people to realize a desire for inclusive, democratic 
governance they have sought since 2011, when they rose up against 
authoritarianism and deposed the Qadhafi regime.
    Thank you for this opportunity to testify today.

    The Chairman. Thank you very much.
    Now we will hear from Christopher Robinson. Mr. Robinson is 
the Deputy Assistant Secretary in the State Department's Bureau 
of European and Eurasian Affairs. He is an experienced diplomat 
with over 23 years of experience as a career foreign officer. 
Mr. Robinson is well placed to speak to Russia's equities in 
the Libya conflict, having recently served as Minister 
Counselor for Political Affairs at the U.S. embassy in Moscow, 
as well as Deputy Director for Russian Affairs at the U.S. 
Department of State. Mr. Robinson.

STATEMENT OF CHRISTOPHER ROBINSON, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Robinson. Good morning. Chairman Risch, Ranking Member 
Menendez, and members of the committee, it is a pleasure to be 
here today with the Assistant Secretary of State for Near 
Eastern Affairs to discuss U.S. policy towards Libya.
    Russia is a determined and resourceful competitor to the 
United States. The Kremlin seeks to use military power and 
proxy actors to impose its will on nations seeking to assert 
their independence and sovereignty. Ukraine is the most 
egregious example where in 2014, Russia invaded and occupied 
Crimea and then used mercenaries and its own army to foment a 
conflict in the Donbas. Russia invaded Georgia in 2008 and 
continues to interfere in the affairs of its neighbors.
    In 2015, Russia expanded its reach to Syria where its 
military and political support of the Assad regime, including 
sheltering the regime from accountability for its use of 
chemical weapons, has fueled a conflict that has cost the lives 
of hundreds of thousands of innocent civilians and forced 
millions to flee Syria.
    Libya now risks becoming the next venue for Russia's malign 
efforts to exploit international conflicts for its own narrow 
political and economic gain. As Under Secretary for Political 
Affairs David Hale testified before this committee last 
December, our diplomats are seized with countering Russian 
adventurism in Africa, where Russia's actions exacerbate 
instability and undermine U.S. interests. In Libya, as Under 
Secretary Hale pointed out, we have called out Russia's 
destabilizing policies, including its use of proxy actors like 
the Wagner Group which is under U.S. sanction. Secretary Pompeo 
made clear during last month's Berlin Conference that all 
participants, including Russia, must abide by the U.N.'s arms 
embargo on Libya.
    In recent months, Russia's surge of mercenaries supporting 
the attack by the Libyan National Army on Tripoli has led to a 
significant escalation of the conflict and a worsening of the 
humanitarian situation. Wagner is often misleadingly referred 
to as a Russian private military company, but in fact, it is an 
instrument of the Russian Government which the Kremlin uses as 
a low-cost, low-risk instrument to advance its goals. Russian 
military support has emboldened General Haftar to continue his 
destabilizing offensive.
    External support to the Libyan parties, including Russia's 
military support of Haftar, is the primary factor allowing the 
conflict to drag on and metastasize into a broader proxy war. 
Russia's direct involvement in the conflict exacerbates 
instability as Moscow seeks access to military facilities and 
resources in Libya with ramifications for southern Europe. 
Moscow may seek to use an enhanced presence in Libya as a 
platform to expand its malign influence in Africa and across 
the Mediterranean.
    By bringing the GNA and LNA to Moscow in January, the 
Kremlin showed it seeks to create parallel diplomatic tracks, 
which would sideline the United Nations and advance narrow 
Russian interests. However, the reduction in violence that came 
into effect in January has begun to fray. For the United 
Nations to succeed in converting the shaky truce into an 
enduring ceasefire, external parties must uphold the commitment 
they made in Berlin to freeze deployments of personnel and 
equipment. So far, the external actors involved in Libya, 
especially Russia, have not followed through on this 
commitment.
    Since 2011, the U.N. support mission in Libya has had an 
international mandate to promote conflict resolution and to 
support a political solution, efforts that Moscow increasingly 
undermines. The United States, on the other hand, supports 
these international efforts, particularly by focusing on 
economic and security dialogues among Libyans to achieve 
tangible, practical solutions.
    The administration is engaged in a range of actions to 
blunt Moscow's efforts to exert malign influence in Libya. It 
is not too late for Moscow to change course and genuinely 
support a political settlement. We will continue to call out 
Russian interference in Libya. The Kremlin is mistaken if it 
thinks using mercenaries provides it deniability for its 
reckless policies.
    Our engagement is also demonstrated through the sanctions 
we have imposed on the Wagner Group and its owner, Putin crony, 
Yevgeniy Prigozhin. In keeping with the administration's 
approach to burden-sharing, we are actively pressing for our 
European allies to also sanction Wagner and Prigozhin. Russia 
needs to understand that it cannot act with impunity to 
destabilize Libya.
    Thank you for this opportunity, and I look forward to our 
discussions this morning.
    [The prepared statement of Mr. Robinson follows:]

               Prepared Statement of Christopher Robinson

    Good morning Chairman Risch, Ranking Member Menendez, and members 
of the committee. It is a pleasure to be here today with the Assistant 
Secretary of State for Near Eastern Affairs to discuss the future of 
U.S. policy toward Libya.
    Russia is a determined and resourceful competitor to the United 
States. The Kremlin seeks to use military power and proxy actors to 
impose its will on nations seeking to assert their independence and 
sovereignty. Ukraine is the most egregious example, where in 2014, 
Russia invaded and occupied Crimea and then used mercenaries and its 
own army to foment a conflict in the Donbas. Russia invaded Georgia in 
2008 and continues to interfere in the affairs of its near neighbors 
such as Moldova.
    In 2015, Russia expanded its reach to Syria, where its military and 
political support of the Assad regime, including shielding the regime 
from accountability for its use of chemical weapons, has fueled a 
conflict that has cost the lives of hundreds of thousands of innocent 
civilians and forced millions to flee Syria.
    Libya now risks becoming the next venue for Russia's malign efforts 
to exploit international conflicts for its own narrow political and 
economic gain. As Undersecretary for Political Affairs David Hale 
testified before this committee last December, our diplomats are seized 
with countering Russian adventurism in Africa, where Russia's actions 
exacerbate instability and undermine U.S. interests. In Libya, as 
Undersecretary Hale pointed out, we have called out Russia's 
destabilizing policies, including its use of proxy actors, like the 
Wagner Group which is under U.S.-sanction.Secretary Pompeo made clear 
during last month's Berlin Conference that all participants, including 
Russia, must abide by the U.N. arms embargo on Libya.
    In recent months, Russia's surge of mercenaries supporting the 
attack by the Libyan National Army (LNA) on Tripoli has led to a 
significant escalation of the conflict and a worsening of the 
humanitarian situation there. Wagner is often misleadingly referred to 
as a Russian private military company, but it is an instrument of the 
Russian government, which the Kremlin uses as a low-cost, low-risk 
instrument to advance its goals. Russian military support has 
emboldened Haftar to continue his destabilizing offensive.
    External support to the Libyan parties, including Russia's military 
support of Haftar, is the primary factor allowing the conflict to drag 
on and metastasize into a broader proxy war. Russia's direct 
involvement in the conflict exacerbates instability as Moscow seeks 
access to military facilities and resources in Libya, with 
ramifications for southern Europe.
    Moscow may seek to use an enhanced presence in Libya as a platform 
to expand its malign influence in Africa and across the Mediterranean.
    By bringing the GNA and LNA to Moscow in January, the Kremlin 
showed it seeks to create parallel diplomatic tracks that would 
sideline the U.N. and advance narrow Russian interests.
    However, the reduction in violence that came into effect on January 
12 has begun to fray. For the U.N. to succeed in converting the current 
shaky truce into an enduring ceasefire, external parties must uphold 
the commitment they made January 19 in Berlin to freeze deployments of 
personnel and equipment. So far, the external actors involved in Libya 
have not followed through on this commitment.
    Since 2011, the U.N. Support Mission in Libya has had an 
international mandate to promote conflict resolution and to support a 
political solution--efforts that Moscow increasingly undermines. The 
United States, on the other hand, supports these international efforts, 
particularly by focusing on economic and security dialogues among 
Libyan technocrats to achieve tangible, practical solutions. By 
engaging with Libyans from across the political spectrum and conflict 
divide, the United States has demonstrated itself to be an honest 
broker, rather than a self-serving manipulator.
    The administration is engaged in a range of actions to blunt 
Moscow's efforts to exert malign influence in Libya. It is not too late 
for Moscow to change course and genuinely support a political 
settlement. We will continue to call out Russian interference in Libya. 
The Kremlin is mistaken if it thinks using mercenaries provides it 
deniability for its reckless policies. This is also demonstrated 
through the sanctions we have imposed on the Wagner Group, and its 
owner, Putin crony Yevgeniy Prigozhin. In keeping with the 
administration's approach to burden sharing, we are actively pressing 
our European allies to also sanction Wagner and Prigozhin. Russia needs 
to understand it cannot act with impunity to destabilize Libya.

    The Chairman. Thank you so much.
    We will go to a round of questions. We will start with 
Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimony.
    Secretary Schenker, looking at the quotes behind me, can 
you understand that there is confusion regarding our policy? 
Can you please state unequivocally whether the United States 
support's Haftar's ongoing campaign to take over Tripoli?
    Mr. Schenker. Thank you, Senator.
    I can say unequivocally the United States recognizes the 
GNA, as does the rest of the international community. We do not 
support the Haftar offensive on Tripoli.
    I think these statements are actually consistent. Haftar 
has, at times, been a counterterrorism partner for the United 
States in Libya. And while we see many of his actions having 
been counterproductive, we see Haftar as a part of the problem 
but also necessarily as part of the solution, and we are 
encouraging him to participate in negotiations.
    Senator Menendez. So the administration does not support 
his ongoing campaign to take over Tripoli. Right?
    Mr. Schenker. Correct.
    Senator Menendez. Now, let me move to the comment you just 
made that in some respects he is viewed as someone who has 
fought against threats by those who we would be concerned 
about. Some of his backers assert that he is the saving grace 
against would-be jihadists who threaten the entire continent. 
However, it was the GNA, with the support of the United States, 
who ousted ISIS from Sirte, and while there are very few 
totally clean hands all around, there are credible reports that 
Haftar has enlisted Salafi militias to fight alongside him.
    So can you point to clear instances of threats from 
Islamists that Haftar or the LNA have neutralized?
    Mr. Schenker. Not in this forum, but he has cooperated with 
us in instances on the ground.
    Senator Menendez. So I would love to have whatever the 
forum is necessary to understand that more clearly because I do 
not get it quite clearly. So I would look to follow that up 
with you.
    Have U.S. officials engaged directly with Haftar, and what 
is your message to him?
    Mr. Schenker. Absolutely, Senator. Since August of 2019 
when Ambassador Norland was confirmed, he has met with Haftar 4 
times. Our charge at the LEO has met--Josh Harris--has met with 
Haftar once. Victoria Coates at the National Security Council 
has met with him several times. We are engaged with him. Yes, 
we meet with him, we talk with him.
    Senator Menendez. What is your message to him?
    Mr. Schenker. The message to him is to engage in the U.N.-
led political process by Ghassan Salame, and to stop the 
offensive on Tripoli, and that is the primary message.
    Senator Menendez. And what is the response he gives you to 
those messages?
    Mr. Schenker. It has not been, to this point, exactly as we 
had hoped, but----
    Senator Menendez. He has rejected all of your messages.
    Mr. Schenker. He did not sign onto the Berlin communique 
which was a 55-point communique that talked about----
    Senator Menendez. So what does Haftar have to show for his 
advances other than increased proxy involvement in the country?
    Mr. Schenker. Haftar controls basically 75 percent of the 
territory through a conglomeration of militias that he has put 
together that is called the LNA. But he does not control--this 
territory does not comprise half the population.
    Senator Menendez. Now, the French Ministry of Armed Forces 
confirmed in July that France had initially purchased U.S.-
manufactured Javelin anti-tank missiles recovered from militia 
forces aligned with Haftar. Credible reports have indicated 
that Emirati air support, including through the use of Chinese-
manufactured drones, has targeted hospitals and migrant centers 
in Libya. Russia, as we have already discussed and some of your 
testimony speaks to, has deployed mercenaries on behalf of 
Haftar. Turkey has deployed Syrian troops to fight on behalf of 
the GNA.
    So what engagement have you had with the major external 
players on military and logistical support they are providing? 
Because I have to tell you in my conversations with some of the 
representatives of these countries here, they tell me why are 
you complaining. The U.S. supports Haftar.
    Mr. Schenker. Sir, we have engaged involved countries to 
de-escalate. We have asked the United Arab Emirates, Turkey, 
and Egypt to use their influence with the GNA and the LNA to 
support the U.N. joint military commission. I cannot speak to 
the provenance of the equipment that was allegedly used by the 
UAE. In terms of drones, I do not believe they are American. 
But we require of all recipients of U.S.-origin defense 
equipment to abide by their end use obligations.
    Senator Menendez. But we have major players which we have 
relationships with and we are not pressing them.
    Mr. Schenker. We are pressing them.
    Senator Menendez. It does not seem so. When I talk to them, 
they tell me ``I do not know why you are complaining, Senator. 
The U.S. tells us they are with Haftar.'' Anyhow, I will stop 
there but it is something to be pursued. I have other questions 
for later.
    Thank you.
    The Chairman. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    I am going to just pick up, first of all, where Ranking 
Member Menendez was going, which is that there is confusion I 
think on the part of a lot of people as to what the posture of 
the United States is with regard to the two factions that are 
going at each other in Libya. The sense of what we have heard 
from the President is that he is inclined to support Haftar. 
The sense of the State Department is that they are inclined 
instead to support the government.
    Are we speaking with one voice? Are the President and the 
State Department on the same page? Is there consistency in 
point of view? And if there is, can we communicate that better 
to the world and to the people in Libya?
    Mr. Schenker. Thank you, Senator. There is no division. 
There is one U.S. policy on Libya. We support the GNA. We 
recognize the GNA. The LNA is a force on the ground, and we 
deal with them. We engage with them.
    The policymaking process is messy at times. I think we have 
seen that in the past. But we are all on the same page as far 
as our push for a stable and secure Libya, support for an 
immediate end to the fighting, an end to external influence and 
the involvement of foreign mercenaries in the conflict.
    We all support Ghassan Salame's efforts. We are working 
with the U.N. We are supporting the Berlin Process. The 
Secretary was in Berlin with the National Security Advisor both 
attending this conference, sponsored by Angela Merkel. The 
President spoke with Angela Merkel about Libya a few weeks ago. 
We are all on the same page.
    Senator Romney. I think recently we have heard a number of 
people point out, I think correctly, that it is the President 
who sets foreign policy, not the State Department or anybody 
else. It is the President's choice. And I think it would be 
helpful if the President's posture with regard to Libya were 
communicated on a global basis such that there was real 
confidence among our allies and those in the region as to where 
we stand.
    What do you believe our objective is with regard to Haftar? 
What do we hope that we want to get him to do? As we look down 
the road, are we looking for him to be part of a coalition 
government? Are we looking to a division of some kind? Are we 
looking for him to be defeated militarily? What are we trying 
to aim to do with Haftar?
    Mr. Schenker. Thank you.
    It is up to the people of Libya to determine the future of 
Libya and what their future government looks like.
    Senator Romney. Of course. But what would we like to see 
with regard to this conflict between the two?
    Mr. Schenker. We want to see the GNA continue with the 
process, right now in the mediation that is being sponsored, 
the Five Plus Five military talks being led by Ghassan Salame 
in Geneva with five representatives on the military side from 
the LNA, five from the GNA to talk, to further consolidate this 
de-escalation and turn it into a durable ceasefire and engage 
in a political process that involves what Ghassan Salame 
describes as the 13 plus 13 plus 13 plus 1, basically a broad 
spectrum of Libyan political actors getting together and 
talking about these difficult issues that have driven the 
conflict: the equitable distribution of oil resources, the 
status of militia in the country, and the role of political 
Islam in Libya. And this is all for Libyans to determine.
    Senator Romney. Thank you.
    Mr. Robinson, it is not lost on us that the Russians have 
learned from the experience of Iran, which is establishing 
proxies that can go out a do things, that you can say, well, it 
really was not us. That has a certain impact. They are not 
necessarily guided by Geneva Accords. They are not guided by 
U.N. resolutions. They are not guided by foreign policy, if you 
will, headline foreign policy of their countries. Russia is 
doing that now with impunity.
    What are we to do as it relates to this militia effort--
excuse me--this mercenary effort on the part of Russia? How are 
we to counter that? Because we are going to see--obviously, you 
have pointed out we have seen it at least twice. How are we 
going to deal with this as we go forward? What can we do to 
reduce its impact?
    Mr. Robinson. Thank you, Senator.
    You are correct. Russia's use of proxy actors that it 
claims--it seeks plausible deniability when their deniability 
is not plausible--is not just a challenge in Libya, but is a 
challenge that we see expanding around the world, whether sub-
Saharan Africa, the western hemisphere. We see Russia 
increasingly resort to this to achieve its malicious foreign 
policy goals.
    And so we have raised this directly with Moscow that 
Russia's increasing use of proxy actors, particularly private 
military contractors, threatens statistic stability globally. 
We have used sanctions in order to reduce their ability to 
operate, particularly Prigozhin and the Wagner network. We are 
working with our allies so that they also place these groups 
under sanction and importantly to call out these activities, to 
publicly attribute them to the Russian Government so that they 
cannot seek deniability.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, thank you both for your service.
    The United Nations arms embargo is in place and it has been 
violated by many players. So list for us who are the major 
violators of the U.N. arms embargo which, of course, the next 
step is to enforce that. And if they are violating it, why do 
we think it is going to be different with the next embargo that 
is passed by the United Nations Security Council? Who is number 
one on the list?
    Mr. Schenker. There are a broad range of violators, and I 
would not want to rank them. But we have seen armaments from 
Egypt. We have seen them from the Emirates. We have seen 
Turkish equipment there.
    Senator Cardin. Of course, Turkey is a NATO partner.
    Mr. Schenker. Correct.
    Senator Cardin. And they are supporting the GNA, but they 
have their own reasons for doing that, which are not exactly 
the same reasons that we are trying to get peace in that 
region.
    Mr. Schenker. Yes. Well, paradoxically while we have worked 
to discourage Turkish deployments to Libya, their deployments 
have, in fact, reestablished the status quo in Tripoli. Whereas 
Haftar, backed by the Wagner forces, was making incremental 
advances, the deployment of Turkish forces have slowed that 
advance and have created an environment that has served to be 
more conducive to negotiations----
    Senator Cardin. But that brings you to the issue of, if you 
get to a ceasefire, is the ceasefire the current lines, or do 
you go back to the April lines? Which I fully understand this, 
the importance of trying to not give them a reward for bad 
behavior in a ceasefire.
    So are you saying that we support what Turkey is doing 
right now in Libya?
    Mr. Schenker. No, I am not. We try to discourage them from 
doing so.
    Mr. Robinson. If I could just add on that. We have engaged 
with Turkey on this that we want all sides to de-escalate. 
Turkey has publicly committed to the Berlin Process and to the 
commitments there. President Erdogan stated publicly that their 
intervention and deployments were a direct response to Russia's 
use of Wagner forces that further escalated and destabilized 
the situation. And so Turkey has publicly committed to a 
ceasefire, and we are engaged in that discussion.
    And to your earlier point, Senator, I think you are right. 
The Wagner forces in particular, by some media accounts, are 
over 2,000 soldiers with heavy equipment and are one of the key 
factors in destabilizing the situation.
    Senator Cardin. So I am trying to see--you see just about 
every participant is violating the arms embargo. What is your 
optimism that if we are able to get a peace process moving, 
that there will not be significant efforts to avoid the 
embargo? And what will the U.S. role be if a peace process 
moves forward? Are we expected to be an active participant in 
that?
    Mr. Schenker. Senator, we support the U.N.-led process, but 
we are into burden sharing as well. The Europeans have 
indicated that if there is enforcement of the ceasefire--and I 
will turn this over to Chris here--that they would take the 
lead here. We are not going to have U.S. troop deployments.
    Senator Cardin. So our position will be pretty much what it 
has been up to now, is that we will voice our concerns, our 
support, but we will not be putting our resources, particularly 
our military resources, behind any type of a solution here? Do 
we expect that Russia will also do what the United States is 
doing and remove itself from that region?
    Mr. Robinson. So let me take that last question first then.
    Senator Cardin. It was sarcastic, I must admit.
    Mr. Robinson. No, I understand that, sir, and I think that 
is really one of the challenges. We have seen a repeated 
pattern of behavior that while Russia publicly commits to 
international obligations to end conflicts, whether it is the 
Minsk Agreements for Ukraine, U.N. Security Council Resolution 
2254 for Syria, or its own self-generated Astana Process with 
Turkey and Iran, it does not honor its international 
commitments on a repeated basis. That is why we will keep 
pressure on Moscow to publicly attribute and hold them to 
account.
    Senator Cardin. And that is I guess my point. Look, none of 
us want our soldiers out--we want burden sharing. We want 
Europe to pick up the needs. But when the United States is not 
there, as Senator Menendez says, it is filled. The void is 
filled and not by our friends.
    So do we really think we can enforce a peace process in 
regards to Libya knowing what Russia is going to be doing 
without the U.S. having some active role in determining how to 
enforce?
    Mr. Schenker. I think we can. I think what we have seen 
since the Berlin process, we had an immediate spike and since 
then, we have had a de-escalation of sorts where you see some 
of those violators of the arms embargo pull back from the front 
lines to give this process a chance. So I do not want to come 
across at all as optimistic. This is a civil war, 9 years in 
the making, and it is going to be very difficult. But there is 
a glimmer of hope that the ceasefire will take hold.
    The Chairman. Thank you, Senator Cardin.
    Senator Perdue, you are going to have to wait. We are out 
of time on the floor on the first vote.
    Senator Perdue. Thank you very much. I will be back.
    The Chairman. We are going to be anxiously awaiting your 
questions when we get back.
    So the committee will be at ease, subject to the call of 
the chair.
    [Recess.]
    The Chairman. The committee will come to order.
    Senator Perdue, you are up.
    Senator Perdue. Thank you, Mr. Chairman. Is this hazing for 
the new member?
    The Chairman. It is.
    Senator Perdue. Thank you for your forbearance.
    I want to talk about two things very quickly. The last time 
I was with President el-Sisi, he was most concerned in Libya 
about the Muslim Brotherhood. This is an ongoing thing with 
him.
    But first, I want to talk about Russia very quickly. I 
would like both of you to give me your responses on the Russian 
activity. We talked about Wagner and their effort there, the 
proxies of Russia there. If you look at a little bit of history 
between Murmansk, Kaliningrad, Sebastopol, and now Latakia and 
Tartus, we see that they have been beneficiaries of this 
nefarious activity. Three in just the last--what--5 to 6 
years--10 years anyway between the Crimea and Sebastopol and 
now Latakia and Tartus.
    When I look at Tripoli, this is an easy thing for them. It 
does not cost a lot of money. They have encouraged this 
nefarious activity. What is their end game, and how do you 
suggest that we and the allies actually stand up there? There 
is a limit to sanctions. I understand we are sanctioning pretty 
much everybody in Russia right now. How much further can we go, 
and are we not in an era of diminishing return with that alone? 
And do we not need a little more cohesive approach from NATO, 
all of the allies with regard to this nefarious activity that 
Russia is engaged in particularly with Wagner over the last 3 
or 4 years--or 2 years?
    Mr. Robinson. Thank you, Senator. I think you are 
absolutely correct that we see a growing pattern of Russian 
behavior here.
    I think in terms of Russian objectives, one is they want to 
demonstrate that they are a global power and that no 
international conflict will be settled without them having a 
seat at the table and their interests, however they may define 
them, in that conflict being acknowledged and taken care of.
    Particularly with regard to the Libya conflict, we see 
Russia intent to--you are correct--secure itself a military 
foothold on NATO's southern flank, on the southern part of the 
Mediterranean, and as well as to gain control over Libya's 
natural resources, again to serve its own narrow political and 
economic interests.
    You are correct that while we have used sanctions, they are 
one tool out of many, that we need to use all our means of 
diplomatic, information, and economic power in order to deter 
Russia from aggressive behavior. So we have done a lot of work 
at NATO in terms of raising efforts to counter Russian 
aggression.
    Senator Perdue. Sorry to interrupt. But their gray war--it 
just does not seem to me that the sanctions have had much 
impact on their gray effort.
    Mr. Robinson. Some elements make it more difficult for 
Russia to operate. I mean, they need to be able to move 
personnel and funds, and we can make it much more difficult for 
them to operate. We can publicly attribute the work that they 
are doing so that they do not have deniability, and that 
remains a key tool in our toolbox to counter Russian 
aggression. And you are correct. We need to continue to work 
with our allies and partners, particularly in Europe, to raise 
the costs for Russia, to deter Russia, and to call out their 
bad behavior.
    Mr. Schenker. I agree 100 percent with what Chris said, 
yes. It is a malign actor, and it would be helpful if we could 
expand what is now a unilateral sanction to a multilateral. It 
would be much more effective, I think, if we had Europe on 
board.
    Senator Perdue. Well, they just do not seem to be deterred. 
These things keep falling in their lap. Latakia and Tartus I am 
very concerned about. They are not down on the horn, but this 
southern flank of Europe really concerns me. I think they have 
their eyes on Tripoli.
    El-Sisi is very concerned about the Muslim Brotherhood and 
their part in the GNA. Talk to me just a little bit about is 
this really a danger. Is this a force compared to what ISIS is 
doing? Or is ISIS on the rebound there? And is Russia playing--
a three-part question. Is Russia benefiting regardless of the 
outcome? Do they get just as much benefit from an instability 
there versus a real outcome?
    Mr. Schenker. Thank you. I will talk about the Islamist 
question here.
    To be sure, the GNA does have ties with Muslim Brotherhood 
affiliated militia in Tripoli. But I would also add, as we 
heard earlier, I think from Senator Menendez, that Haftar has 
his own different flavor of Islamists. They are Salafists, and 
he has aligned with Salafist militia. This is something that 
will be determined, I think, in political talks between the LNA 
and GNA about the status of Islamists in the country, what 
their role will be, what the role of political Islam will be in 
that country.
    As for ISIS, you know that in September, we had a drone 
strike in south Libya that killed some 43 members of ISIS. This 
is an ongoing problem and something that is easier to contend 
with from a U.S. point of view or would be easier to contend 
with if there was no war in Libya, if we had U.S. troops and 
assets stationed in Libya.
    Senator Perdue. So I am out of time, but you would agree 
that the instability there does create a fertile atmosphere for 
ISIS recruiting and ISIS growth?
    Mr. Schenker. It does.
    Senator Perdue. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here.
    You both talked about how our sanctions regime would be 
more effective if the Europeans were better participants in 
that. What are we doing to try and encourage Europe to 
participate? And why are they unwilling to do that?
    Mr. Robinson. So, Senator, you are correct. Our sanctions 
are most effective when we can do that in partnership with our 
allies. That enables both to deter their behavior but to send a 
clear message to Moscow in particular that the transatlantic 
community is united on whatever the issue is, whether it is 
Ukraine, Syria, or Libya.
    We have engaged with the European partners. We had a team 
in Brussels just in January to share more information on these 
private military contractors and our concerns there.
    Senator Shaheen. So why are they so unwilling? Do they feel 
like there are benefits to their companies in European 
countries because they are benefiting from the sale of arms?
    Mr. Robinson. They have not expressed that view to us. I 
think they move in a more deliberative process. We and Brussels 
have not always moved in sync. Our authorities enable us to 
move quicker in some cases to impose sanctions than the EU 
process for imposing sanctions. But we are working very closely 
with them on that.
    Senator Shaheen. So how optimistic should we be that they 
are actually going to come along, and how much of a deterrent 
is it that the United States did not consult with them or let 
them know about the strike against Soleimani, did not let them 
know about our withdrawal of troops from Syria, have not been a 
very good partner in terms of what our activities have been 
with regard to what the Europeans are doing? How much is that 
affecting our ability to get them to join us?
    Mr. Robinson. So particularly with regard to Russia and 
then more broadly with the Berlin process as well, I think they 
have seen U.S. leadership. We have a good track record of close 
cooperation on a range of these issues. Our European allies see 
the threat the same way. We just use, at times, different tools 
to address the threat. So we are very focused on that, and we 
will continue to pursue that with our allies.
    Senator Shaheen. Do you agree with that, Mr. Schenker?
    Mr. Schenker. I do.
    Senator Shaheen. I want to follow up on Senator Perdue's 
questions about ISIS because southern Libya has been exploited 
by parties to the conflict, as you both pointed out. It is 
destabilized by a variety of groups. So what more should we be 
doing?
    And earlier this month, we heard reports that Turkey sent 
over 4,000 foreign militants from Syria to fight on behalf of 
the GNA in Tripoli and that at least dozens of them are 
extremist affiliated. So how concerned should we be about 
Turkey's involvement there and the potential for the Turks to 
be encouraging, whether deliberately or not, the reformation of 
ISIS and the growth?
    Mr. Schenker. Senator, if I can touch on the first part of 
that, the issue of the persistence of ISIS in Libya. This is an 
enduring problem. And the best way to solve that is to support 
an end to the fighting, end of the civil war, and that way we 
can be better placed to have a more hands-on approach, closer 
proximity to the problem.
    But this is a problem in the Sahel states that border Libya 
as well. The way we are dealing with this right now is we are 
in discussions with our allies about NATO Middle East, or 
NATOME, in terms of expanding NATO presence working with our 
allies, the French, and others on countering these type of 
threats in North Africa, as well as in the Sahel.
    Mr. Robinson. And, Senator, specifically with regard to 
Turkey and the challenge of terrorism, Turkey is a key NATO 
ally and a critical partner in the coalition to defeat ISIS, so 
we continue to engage with them on that. We have expressed our 
concerns and the need to de-escalate in Libya, but they remain 
a vital partner in the campaign against ISIS.
    Senator Shaheen. So do you discount the reports that 
suggest that some of those Turkish soldiers who went into Libya 
are actually extremists who are fighting with them, just as we 
saw the Turkish troops that moved into Syria included militias 
that were extremists?
    Mr. Robinson. Again, I do not have any information 
specifically on that, but we have engaged with Turkey to de-
escalate and to engage, and they have expressed both publicly 
and privately their commitment to the Berlin Process and to a 
peaceful resolution of the conflict in Libya.
    Senator Shaheen. I appreciate what they have said publicly. 
I hope that we will continue to press them on who actually is 
being sent to Libya to fight and what their affiliations are 
because clearly Turkey is talking out of both sides of its 
mouth. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you for being here. I appreciate it very much.
    I am sorry to be late to the hearing. This may have already 
been asked before. But it is such a unique mess we have on our 
hands with regard to all the different sides involved in that 
conflict and in particular now that sort of Turkish involvement 
that from open source reports--I read something again this 
morning. It appears to be that some of their engagement is via 
the regular forces potentially. Some of their engagement is 
also via aligned groups that may or may not have been a part of 
their efforts in Syria. And then the reverse of that is these 
reports in the media about the Russian contractor role and that 
some of the people--at least that I have read about in some 
article last night--that are operating on the Wagner side are 
not necessarily even Russians or Europeans. They are, I guess, 
soldiers for hire in the region.
    I guess I am trying to fully understand what our view is or 
what our best assessment is of what the Russian intention is 
with regard to Libya. Is it basically to reach an outcome that 
would allow them to have influence in the future of the 
country? It sounds like it is another one of those proxy plays 
where they have been able to outsource the operation to a 
private contractor that they deny having links to so they do 
not have to explain to people back home why some Russian is 
dead. But at the same time, it gives them enough influence over 
the future outcome of a conflict in a way that is beneficial to 
them, whether it is a seaport access or natural resources.
    Mr. Robinson. So, Senator, you are absolutely correct. I 
think the Russian intention is clear. They seek to sow chaos, 
to inflame conflict to serve their interests. In this 
particular case, their interest is to demonstrate that they are 
a great power and particularly to secure themselves a military 
presence on NATO's southern flank and to secure access or 
control over Libya's oil resources.
    With regard to Russia's use of mercenaries, we need to 
continue to be clear that there is no plausible deniability. 
This a Kremlin-directed organization that is used by the 
Kremlin to carry out its very narrow foreign and security 
policy interests. We will continue to call them to account for 
this, hold them responsible. We have sanctioned them, and we 
will continue to hold Russia to account.
    Senator Rubio. The other thing I would point is this 
appears to now be the second place in which the Turks find 
themselves on the opposite side of an increasingly growing 
conflict from the Russians. So we have seen just in the last 72 
hours sort of open conflict with the Assad regime just outside 
of Idlib. We have seen now in this case that they are 
increasingly ramping up their presence in Libya. It is an 
interesting dynamic because at the same time as they are in 
conflict with the Russians, they are also engaged in buying 
weaponry from them and so forth, which has created a conflict 
with the United States.
    What is the Turkish objective in being involved in this 
outcome?
    Mr. Robinson. So Turkey is a key NATO ally. It is a key 
player in regional security issues. And I think you are 
correct. They have both Iran and Russia on their near borders 
and face a threat from those directions. And so we continue to 
engage with them. You are correct. Turkey has suffered serious 
losses of its soldiers in Syria at the hands of the Assad 
regime backed by the Russian Government. And so while we have 
some differences with the government in Ankara on certain 
issues, we are engaged with them because we take their security 
concerns seriously.
    Senator Rubio. What is their rationale for Libya being a 
place they want to be engaged?
    Mr. Robinson. So President Erdogan was very clear that they 
deployed forces in response to Russia's escalation and its 
massive deployment of Wagner resources. They have publicly 
committed and privately committed to the Berlin Process, to a 
peaceful settlement of this conflict, and they are engaged 
substantively on that. And so in this case, we are engaged with 
Turkey on that. It is Russia that remains the bad actor.
    Senator Rubio. And finally, what has been the impact on the 
CT, the counter-terror, mission in Libya given this uncertainty 
particularly with both ISIS and al Qaeda elements having, at 
least historically in the past, tried to establish a presence 
there? I would imagine that the existence of this conflict has, 
in some ways, potentially undermined those efforts.
    Mr. Schenker. Thank you, Senator.
    In our view, it has complicated the counterterrorism 
campaign. As I pointed out earlier, we had strikes in September 
killing 43 members of ISIS in south Libya. We still have allies 
on the ground who we are working with to fight terrorists, but 
we no longer have that presence on the ground in Libya.
    The Chairman. Thank you, Senator Rubio.
    Mr. Robinson, I would like to follow up on a question that 
Senator Rubio asked. Is it your sense that the Turks are 
figuring out they are holding hands with the wrong person under 
the table yet? You know, this has been very frustrating for a 
lot of us. We meet with the Turkish officials, and I have met 
with Erdogan myself. It is just incredibly frustrating and hard 
to understand why they have taken up this romance after 
hundreds of years of conflict, and they are turning to them 
instead of to people who are their official allies. It seems to 
me at some point in time, they are going to catch on that they 
are making a huge mistake. Has that thought taken root at all 
with them yet? Have they woken up to that yet?
    Mr. Robinson. I think you have seen the Turkish Government 
call out Russia for its responsibility on what is happening in 
Syria and that Russia is not honoring its commitments. This is 
a continuing problem.
    Again, we are engaged with Turkey. They are a NATO ally, 
and we take their threat seriously. But we see a pattern of 
behavior where Russia does not honor its agreements, whether it 
is the ones they negotiated, for example, Syria with the Astana 
Process. They say one thing but their actions tell another 
story.
    The Chairman. Well, and I appreciate your statements about 
Turkey being an ally, and we know they are an ally. They are an 
official ally, but they are not acting like an ally in a lot of 
respects. And I am thinking particularly about the S-400's, 
which is a major, major issue for us, and we have not been able 
to get by that yet.
    Anyway, I hope they wake up soon and come back in the fold. 
They have been a good ally, an important ally over the years, 
and it is sad to see this thing going the direction it has gone 
in recent years.
    So with that, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And to the witnesses, an important hearing.
    I want to just ask a simple one. Is current U.S. policy to 
support the GNA or the LNA or both?
    Mr. Schenker. Thank you, Senator.
    We recognize the GNA as the government of Libya.
    Senator Kaine. The U.S. and the U.N. both recognize the GNA 
as the legitimate government of Libya at this point.
    Mr. Schenker. Correct.
    Senator Kaine. And does that mean that is who we support 
right now?
    Mr. Schenker. Yes. We support the GNA, but we support a 
negotiated solution, taking into account----
    Senator Kaine. You are trying to find a way to end the 
civil war and how can we be helpful in that.
    Mr. Schenker. Right, and that includes necessarily dealing 
with the LNA.
    Senator Kaine. Why did the U.S. participate in April and 
May in blocking the U.N. Security Council resolution calling 
for a ceasefire, calling for the LNA to stop proceeding and 
waging war against the GNA?
    Mr. Schenker. It is a good question.
    Senator Kaine. Britain put a resolution on the table to try 
to stop the LNA's waging war against the GNA, and by the 
accounts that I have read, it was the U.S. and Russia that 
blocked that Security Council resolution.
    Mr. Schenker. Well, I do not know why Russia blocked the 
resolution. I can tell you that there are so many of these 
resolutions that we work on that have no teeth, that do not 
have any meaning, and we do not want to sign onto meaningless 
resolutions.
    Senator Kaine. I know you are citing general concerns. But 
do you know specifically why in this case? Because in this 
case, the reporting was that Secretary Pompeo spoke favorably 
about the resolution, but then quickly thereafter, the White 
House urged the U.S. mission at the U.N. to block the 
resolution and folks were very surprised about it. Russia had 
asked for conditions on the resolution, and those conditions 
were not given. But the U.S. actually was the one that raised 
the veto threat.
    Mr. Schenker. Senator, I cannot specifically comment on 
that, but I can tell you----
    Senator Kaine. And that is because you do not know the 
answer to the question.
    Mr. Schenker. I do not know.
    But what I will tell you is that I have worked on other 
resolutions, for example, ceasefire resolution around the time 
of the----
    Senator Kaine. Can I just--you have a deep background. But 
I do not believe the challenges with other resolutions is 
relevant to the question about why we blocked this one. So I am 
going to move to just a second point.
    Just in the last couple of days, Virginia citizens and 
American citizens filed a big human rights case in the District 
of Columbia against Field Marshal Haftar, who at some points in 
the past has been a Virginia resident. And so they argue that 
that gives them jurisdiction against him.
    You know, it seems as I have followed this from last spring 
to now, there has maybe a little bit of an evolution of the 
thinking that, well, maybe Haftar was okay, or maybe we should 
reach out to him or maybe we should block the ceasefire 
resolution to be more favorable to the LNA or hopefully to get 
their help on anti-terrorism or others. There has been a 
rethinking of that, which I think is smart.
    We have recognized the GNA as the legitimate government. We 
should be doing things to shore them up, not weaken them. I do 
not think being involved in peace discussions to try to bring 
out--in ways we can and others, kick out proxies in the civil 
war. That is the kind of thing we should be doing.
    But we sort of undermined the government that we recognize 
when we took steps that were seen broadly as puffing up the 
LNA, including blocking the Security Council resolution. And so 
hopefully that time of sending the mixed messages is over and 
we send the clear message that we support the GNA. We want them 
to be stronger. And I hope that that is the message that is now 
being sent unequivocally and loud and clear by the 
administration.
    Mr. Schenker. Senator, it is.
    As for Haftar and what is happening in your district, I 
have to refer you to DOJ.
    Senator Kaine. Right, right. Yes. That is just more public 
information.
    But with that, thank you, Mr. Chair. I will yield it back 
to you, Senator Rubio and Senator Menendez.
    Senator Rubio [presiding]. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here today.
    I wanted to stay for a moment on our policy with respect to 
General Haftar and ask you a very specific question about how 
we can try to make clear which side we are on. You have, 
obviously, gotten a good number of questions, deservedly so, 
from members of this committee who are confused and who reflect 
general confusion around the world about where the United 
States stands. And I thank you for your very clear testimony 
today.
    But we have a tool at our disposal that has not yet been 
engaged and that is CAATSA sanctions. CAATSA says that the 
President shall impose sanctions on individuals who knowingly 
engage in a significant transaction with a person that is part 
of or operates for or on behalf of the defense or intelligence 
sectors of the Russian Federation. The Wagner Group has been 
designated under CAATSA, and they are clearly in business with 
Haftar. So are we planning on sanctioning Haftar? Is that a 
discussion that is underway? And if we are not planning to do 
so, why not?
    Mr. Robinson. Just a general comment overall. The 
administration is fully committed to implementation of CAATSA 
sanctions. As you well know, Senator, we are very engaged with 
this committee on that issue. The administration has sanctioned 
nearly 350 Russian individuals and entities. But sanctions are 
always one tool in the toolbox, and they need to be used to 
change behavior and achieve a specific outcome. And it is an 
issue of choosing of how we apply the tool and at the right 
time.
    Mr. Schenker. Senator, thank you.
    On CAATSA--let me go back first. We have sanctioned a 
number of individuals in Libya under U.N. authorities. We have 
a similar EO that echoes a U.N. authority for sanctions on 
those who undermine stability in Libya. We have done that too, 
including the Speaker of the House of Representatives of Libya 
who has been designated. So we use these tools when we think it 
appropriate.
    Right now, Haftar is participating as a member of the Five 
Plus Five mil-to-mil committee, cooperating with the U.N. We 
want to encourage this, and we are hoping that he goes to the 
next step in these talks, which is the political talks. I 
cannot get into the internal deliberation, though, of what we 
are talking about designating him or not.
    Senator Murphy. I understand the balance. I think it would 
be important to have these internal discussions in part because 
the statute is not permissive, and so if he in fact is 
operating in coordination with an entity that has been 
designated, I do not know that there is a lot of discretion 
involved there.
    I wanted to get in the question about the UAE. As far as I 
can tell, your testimony, Secretary Schenker, today is the 
first time that the administration has acknowledged that the 
UAE is a bad actor here in the sense that they have clearly, 
according to many reports, including for the United Nations 
Panel of Experts, been in violation of the arms embargo, and 
they are one of, if not the primary, actor of funding of much 
of the activity inside Libya today.
    And yet, we are still in business with the UAE. The 
administration used emergency powers to sell $8 billion worth 
of arms to them in 2019. Seven percent of all of our arms sales 
are to the Emiratis. So we have levers that are available to us 
to play with the Emiratis, both in public statements and in the 
mechanics of how we do business with them.
    But it has just been striking to me that we have this 
rhetoric about trying to put pressure on outside actors who are 
supporting destabilization inside Libya and yet, with the 
Emiratis, it does not seem like we are really willing to go to 
the mat. We are not willing to tell them if you continue to 
fund Haftar and others, we will not sell you arms, and we do 
not seem to be willing to call them out with the exception of 
your statements today. Tell me why I am wrong about that.
    Mr. Schenker. Well, in fact, the Secretary called the UAE, 
as well as Turkey and Egypt and others, out in Berlin at the 
Berlin Conference. So we are not shy about pointing this out.
    We do believe, however, that diplomatic engagement with 
them will be more likely to get better results in the long run, 
and they appear to be cooperating now and adhering to the 
framework of the Berlin Process.
    We also have a broad range of equities with the Emiratis 
frankly right now as well.
    Senator Murphy. Have you come to the conclusion that they 
are in violation of the arms embargo?
    Mr. Schenker. I think that would be a question for the 
State Department's Office of the Legal Advisor.
    Senator Murphy. All right. I would contest the fact that 
they are cooperating. I think they continue to be in violation 
of that embargo. I am happy to follow up with them.
    I just would urge you to use some firmer measures. I do not 
think you are getting what you need from the Emiratis right 
now, and I do not know that these quiet diplomatic back 
channels are going to get you there.
    Thank you, Mr. Chairman.
    Senator Rubio. The ranking member.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me just make a comment for the record to both of you. 
You can take it back to the Department. As one of the authors 
of CAATSA, it is not voluntary. It is not discretionary. It is 
mandatory.
    I think the administration thinks that it can ignore 
Congress with impunity, violate the congressional, not only 
intent but also, the actual wording of the law. And that will 
have consequences.
    Listening to the President's defense team, one of the 
consequences they say that Congress can have is to hold up 
nominations. Well, if that is what we have to do to have 
faithfulness to the law, including CAATSA, that is what we will 
do. So this is not a question of discretion.
    Secretary Schenker, let me ask you something. Going back to 
Senator Kaine's questions of the resolution that we joined 
Russia in vetoing, what message do you think it sends to the 
international community and our partners that we joined Russia 
to defeat a British initiative?
    Mr. Schenker. We were engaged with the British and the 
French and all our partners at the U.N. before to try and 
improve this resolution, but there have been so many that have 
been tabled, including one that I started to explain to Senator 
Kaine, including one this year where we worked maybe 5 days 
solid to get an agreed-to resolution supporting a ceasefire in 
Libya. And we finally got the resolution, and the time it took 
to get the resolution was 5 times longer than the ceasefire 
lasted. We do not consider this productive, spending time on 
these resolutions that do not accomplish anything. So we want 
resolutions that have teeth as well.
    Senator Menendez. What is our leverage here to produce a 
resolution that will work? If we are not supporting the 
British, we are joining with the Russians who are a bad actor 
in Libya--do we agree on that? Russia is a bad actor in Libya?
    Mr. Schenker. Yes.
    Senator Menendez. Okay. So Russia is a bad actor in Libya, 
but we joined Russia against Britain. Wow. So what is our 
leverage here? I am trying to understand what our leverage is.
    Mr. Schenker. We are about to sign onto a Security Council 
resolution on Libya that we have worked with the British and 
the French that we think is productive, that seems to hold to 
account member states that violate the arms embargo and that is 
more meaningful in a way and that, as Chancellor Merkel said, 
will name names. We think this is important. We think it is 
productive.
    Senator Menendez. I cannot wait to see the naming of names.
    Let me turn to something else. The Turkish-GNA agreement is 
based on a flawed reading of international law. Our partners, 
including Greece and Cyprus--Greece, a NATO ally; Cyprus, part 
of the European Union--have expressed vocal opposition to this 
agreement which, also as I said in my opening statement, 
undermines U.S. security interests.
    Will the United States insist that any potential future 
Libyan Government eschew the underpinnings of this agreement 
and work with other eastern Mediterranean countries to comply 
with international law and peaceful energy exploration?
    Mr. Robinson. So thank you, Senator.
    Regarding the maritime delimitation in this agreement, we 
have called on all parties to refrain from actions that risk 
heightening tensions in the eastern Mediterranean at this very 
sensitive time. These developments, as you have rightly pointed 
out, highlight the risk that the Libyan conflict will take on 
wider regional dimensions and the urgent need for all the 
parties to work towards an agreed solution. And the 
announcement of the delimitation memorandum has raised tensions 
in the region, and we are engaging with all the parties to de-
escalate.
    Senator Menendez. Okay. Well, that is very nice. All the 
parties. But there is only one set of parties that is creating 
this problem. It is Turkey making this outrageous declaration 
that this strip that goes through international waters and 
actually lands of Greece, for example, as well as Cyprus, is 
somehow welcomed. So why is it we say all the parties? What are 
the other parties doing? They are not doing anything except 
being the victims of a determination that creates into conflict 
their exclusive economic zones. Why do we say all the parties 
when in fact we know there is a party here creating a real 
problem. That is Turkey.
    Mr. Robinson. Senator, we do not want the tensions to 
escalate. We do not want any country to take rash actions that 
would further inflame tensions. And so again, we are engaged 
diplomatically with everybody involved in order to de-escalate 
this.
    Senator Menendez. But who did something here? Did Greece do 
something?
    Mr. Robinson. No, Senator.
    Senator Menendez. Did Cyprus do something?
    Mr. Robinson. No, Senator.
    Senator Menendez. Thank you. So by process of elimination, 
Turkey is the one who did it. Yes, we call on all parties.
    Final question. Libya has become a transit country for 
hundreds of thousands of migrants, refugees, and trafficking 
victims. And we all recall the horrific stories about actual 
slave markets from a few years ago. What steps are we taking to 
promote refugee and migrant protections, particularly with the 
Europeans?
    Mr. Schenker. Thank you.
    In terms of Libya is what I can address first here, 
Senator, we last year I think gave $30 million to the UNHCR and 
the International Organization of Migration to help ameliorate 
conditions on the ground. To be sure, the situation for 
migrants and refugees is deplorable. They are vulnerable, 
highly vulnerable, subject to torture, sexual violence, 
trafficking, arbitrary detention, et cetera.
    At least with the Europeans, there is an agreement between 
the Libyan coast guard and the Italian navy that has just been 
renewed, a memorandum of understanding, that involves how to do 
these patrols and includes elements on how to better treat 
migrants. But certainly this is a significant concern. Libya is 
both a destination and a point of transit for migrants and is a 
continuing point of concern, although I must say in 2019 there 
was something like 120,000 refugees and migrants from Libya to 
Europe, meaning to Italy and Malta. In 2019, there was only 
something like 15,000.
    Senator Menendez. Thank you.
    The Chairman. [presiding]: Senator Coons.
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez. Thank you for turning our committee's attention to 
Libya and the longstanding security and humanitarian challenges 
there.
    Last November, I introduced the Libya Stabilization Act, 
along with my colleagues, Senators Graham and Murphy and Rubio, 
and it is my hope to discuss for a few minutes some of the 
principal aims of it.
    At the top of the list is the lack of a clearly articulated 
U.S. policy towards Libya. And the point of this bill is to 
bring high level attention to that process and to get us to a 
policy that is specifically focused on creating conditions on 
the ground to stabilize the country and ensure a long-term 
peace. And so this hearing is an important step towards 
articulating some of the core elements of that.
    I think a critical place to start is the actual enforcement 
of the U.N. arms embargo, which has been in place nearly a 
decade but is routinely violated, and I think the United States 
should use its considerable influence and leverage to deter 
continued violations.
    If I could, Mr. Assistant Secretary, does the 
administration have a strategy for stepping up enforcement of 
the arms embargo? I appreciate that there have been statements 
at the United Nations. I appreciate resolutions. But how will 
we move towards actual deterrence and compliance?
    Mr. Schenker. Thanks, Senator.
    We have been encouraging our partners and those who are 
actively involved in the conflict of Libya to step back, to 
discontinue this foreign interference, mercenaries, and sending 
of weapons there.
    If we do anything, we believe, first of all, that 
diplomatically we are in a better place now moving forward, and 
there has been somewhat of a de-escalation on the ground in 
terms of where these munitions are placed, what countries there 
are in in the region, et cetera.
    That said, we would want to do something that is 
multilateral not unilateral.
    Senator Coons. Well, my concern is that we are an essential 
party, and an absence of focus, prioritization, clarity will 
lead to continued drift. And there frankly, as my friend and 
colleague, Senator Menendez's question implied in a different 
context, he was talking Turkey and maritime delimitations--but 
there is a principal actor here, through the Wagner Group, has 
been interfering not just, as you mentioned previously, Deputy 
Assistant Secretary, not just in Syria, not just in Ukraine, in 
the Central African Republic, in Mozambique, and more recently 
here in Libya, and I suspect they are the party least 
interested in having pleasant, calm, diplomatic conversations 
about the U.N. arms embargo.
    What additional leverage do you think we could or should 
apply multilaterally that might deter Russian violations of the 
U.N. arms embargo?
    Mr. Schenker. Well, I will just say one word and Chris can 
go from there.
    But we have encouraged our European allies--I have 
encouraged them, all parties of the Berlin process--to 
designate Wagner as well so it is not a unilateral sanction. I 
think that would be most effective.
    Mr. Robinson. Senator, we have been direct with the 
Russians in calling them out for their actions both publicly 
and privately. Secretary Pompeo, Ambassador Sullivan in 
Moscow--we have raised specifically our concerns so that there 
is no plausible deniability for Russia's actions and that we 
hold them to account wherever these private military 
contractors or other proxy actors operate and that we hold 
Russia responsible. As I have already said, we have sanctioned 
Wagner. We have expanded the sanctions against Yevgeniy 
Prigozhin, and we are working very diligently to ensure that 
Brussels takes similar actions.
    Senator Coons. Why are we getting resistance or lack of 
response or engagement from our European allies who are more 
directly and intimately at risk here and see the 
destabilization and see the projection of power by Russia?
    Mr. Robinson. Europe has different authorities for 
operating. They have different standards for imposing 
sanctions, and so it is, as I said, many times a longer, slower 
process than frankly we would like, but we try to work very 
closely. We have a robust information sharing process with our 
European partners. And there is real concern and an awareness 
of the threat Russian proxy actors pose--and you are correct--
across sub-Saharan Africa and in the western hemisphere and 
elsewhere.
    Senator Coons. But one component of the bill I mentioned is 
to specifically require the Department of State and Department 
of Defense to have a joint strategy for countering Russian 
aggression, engagement, influence in Libya, particularly 
because, as you called out in your opening comments, they may 
well be seeking not just access to resources but also critical 
basing and refueling opportunities.
    Last I think is the dire humanitarian situation which is 
equally alarming. It is just the third question I am getting 
to, not the least concerning.
    As you said, some 2,000 Libyans, hundreds of civilians have 
been killed, and more than 150,000 people displaced. And we 
have seen detention centers and aid workers attacked and 
security undermined.
    The Libya Stabilization Act would authorize funds to 
address the humanitarian crisis and to help unify some of 
Libya's governing and financial institutions that are currently 
scattered, which I think could be a critical step in restoring 
security and services.
    Do you agree this would be a wise investment for the United 
States as we continue to try and lead with our allies in 
resolving Libya's conflict?
    Mr. Schenker. I do and I look forward to discussing the 
bill with you. I think it is important legislation. I think 
that we have to continue to make investments in Libya.
    Senator Coons. Any closing comment you would like to make, 
Deputy Assistant Secretary?
    Mr. Robinson. Senator, you raised one point about the 
importance of joint action and the joint plan. And I will say 
Russia has been successful in its use of proxy actors to carry 
out malign influence operations because it has brought a whole-
of-government approach. This administration has brought 
together a whole-of-government approach to counter Russian 
influence and aggression, and we are putting that plan into 
action, including to counter Russia in Libya and elsewhere we 
find Russian aggression.
    Senator Coons. Thank you. I appreciate that. I think 
frankly we need not just a whole-of-government approach but a 
whole-of-government approach closely coordinated with our 
trusted allies and relationships with those allies that allow 
us to sustain this kind of important work.
    As you have laid out in Libya, foreign interference, 
humanitarian strife, the implications of this conflict for our 
CT efforts, for security across the whole Sahel, and the 
political stability frankly of our vital European allies are 
just a few of the reasons why I am grateful to the chair and 
ranking for this hearing on Libya. It reinforces my belief the 
United States is absolutely an essential actor, and we could 
play an outsized and positive role in stabilizing Libya and 
advancing our national interests.
    So thank you and I hope we will proceed to a markup of the 
bill.
    Thank you very much, gentlemen.
    The Chairman. Thank you very much. Thank you to everybody 
who participated in this hearing.
    Senator Coons, as far as your bill is concerned, we thank 
you and Senator Rubio for this piece of legislation. As you 
know, it is in staff right now being worked over to try to get 
to a yes for everybody. And as you know, as we try to move 
things towards the middle of the road, we do better if we can 
get everybody on board on it. So that is an ongoing effort 
right now, and it is a good faith effort. We will try to get it 
up so we can get the bill.
    A sincere thank you to both of our witnesses for being here 
today. It was very helpful.
    For the information of members, the record will remain open 
until the close of business on Friday. If indeed there are 
QFRs, we would ask the witnesses to respond as rapidly as 
possible so that we can close the record.
    And thanks to the committee, and this meeting is now 
adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Hon. David Schenker to Questions 
                  Submitted by Senator Robert Menendez

    Question. Thank you for stating that the administration supports 
the GNA and does not support General Haftar's offensive on Tripoli. 
Unfortunately, many of our partners have not understood this message:

    What steps will the administration take going forward to make it 
clear that this is U.S. policy?

    Answer. The United States' recognition of the Government of 
National Accord (GNA) as Libya's government has not changed. The 
administration's position is that only an inclusive, negotiated 
political solution can solve the conflict in Libya and that the 
fighting in Tripoli must end immediately. Achieving this requires 
diplomatic engagement with all sides of the conflict. The United States 
has made its position clear through numerous public statements and 
private diplomatic engagements with the full range of countries 
involved in Libya.

    Question. What steps will the U.S. take to ensure that external 
actors stop violating the U.N. Arms Embargo on Libya?

    Answer. Secretary Pompeo attended the Berlin Conference convened on 
January 19, an event that sought progress toward a political solution 
to end the conflict. The conference conclusions highlighted the 
commitment of participants to refrain from interference in the armed 
conflict and to abide by the arms embargo. Since the Berlin Conference, 
the United States voted for two United Nations Security Council 
Resolutions (2509 and 2510), which were both adopted, reaffirming 
strong support for the arms embargo. The resolutions stress that 
individuals or entities who violate the arms embargo, or assist others 
in doing so, are subject to designation under the Libya sanctions 
regime. However, designations of individuals or entities that violate 
the arms embargo can be blocked by a single member of the U.N. 
Sanctions Committee (including Russia). The United States has strongly 
called for strict implementation of the arms embargo and accountability 
for violators and is supportive of the recent EU decision to launch a 
new maritime operation, to include aerial and satellite assets, focused 
on enforcement of the arms embargo. The Department has engaged 
diplomatically with a number of countries that are suspected of having 
violated the embargo in order to encourage them to return to 
compliance, accept that there is no durable military solution to the 
conflict, and support a negotiated political solution to the conflict.

    Question. Given Haftar's unwillingness to stop his offensive on 
Tripoli or participate in the Berlin Conference, what steps is the 
administration willing to take to push him to take these steps?

    Answer. The United States has made clear to all Libyan parties to 
the conflict--and their foreign backers--that they must participate in 
the U.N.-facilitated political, military and economic dialogue tracks. 
The United States successfully brought together delegations from the 
GNA and self-styled Libyan National Army (LNA) for economic talks in 
Tunis in December. U.S. officials have coordinated closely with Special 
Representative of the Secretary-General (SRSG) Ghassan Salame and his 
staff during all rounds of U.N.-facilitated talks, and have played an 
active role in pressing the Libyan parties to participate. When the 
parties have taken steps to escalate the conflict or undermine 
dialogue, the administration has made its condemnation of these actions 
clear, including publicly when appropriate.

    Question. Will you commit to having the NEA Bureau provide a 
classified follow-up briefing with my staff on US-Haftar cooperation?

    Answer. NEA is committed to keeping Congress fully informed of our 
activities and will consider any request for a classified briefing 
regarding matters that fall under the purview of the bureau.

    Question. Do you believe the U.N. and UNSMIL have the capacity to 
promote a meaningful dialogue and solution?

    Answer. The United States supports the efforts of SRSG Salame to 
broker an inclusive, Libyan-led and Libyan-owned political solution to 
the conflict. U.N. efforts have made progress in spite of the 
complicated array of local factions involved in the conflict and 
continued foreign interference which threatens to further escalate the 
violence. In addition to hosting ceasefire talks in Geneva, the SRSG 
plans a political process bringing together representatives of the 
Libyan House of Representatives, the High State Council, and additional 
representatives to reflect Libya's geographic, ethnic, and political 
diversity. The U.N. Security Council reviews UNSMIL's mandate annually, 
providing a regular opportunity to ensure an appropriate alignment of 
tasks and resources to the mission as the situation in Libya evolves.

    Question. Is it our policy to continue to promote a civilian-led 
government?

    Answer. The United States continues to promote civilian leadership 
of any future Libyan government, the form of which must be determined 
by the Libyan people.

    Question. Given the fractured state of politics and 
decentralization of Libyan security structures,

    What is your assessment of Sarraj and his ability to lead a 
government? Do you believe he is someone who could lead a united Libya?

    Answer. The GNA is by design a temporary, transitional government. 
PM al-Sarraj was not elected to his position. The leader of a future, 
permanent Libyan government should be chosen via free and fair 
elections that reflect the will of the people. The United States does 
not take a position on the merits of individual candidates.

    Question. Do you see a role for Haftar in a future Libyan 
government? What kind of role?

    Answer. The United States continues to support General Haftar's 
participation in negotiations to achieve an inclusive political 
solution to the conflict. Haftar's role in a future Libyan government 
will ultimately be determined by the results of those negotiations.

    Question. How many refugees evacuated from Libyan detention centers 
have been resettled in the United States via transit facilities in 
Niger and/or Rwanda?

    Answer. The U.S. has so far resettled 134 refugees, mostly 
Unaccompanied Refugee Minors from Niger. There are currently another 70 
in process.

    Question. What steps are the U.S. taking to press for increased 
humanitarian access to migrant detention centers throughout Libya? In 
addition, is the U.S. pressing parties to the conflict to close 
detention centers, as outlined in the Berlin Conference communique?

    Answer. The United States continues to advocate for the humane 
treatment and protection of IDPs, refugees, and migrants in Libya in 
our engagement with Libyan authorities. We support efforts by U.N. 
agencies and Libyan authorities to facilitate the swift and orderly 
closure of migrant detention facilities. Our support funds efforts to 
extend assistance and services to help previously detained persons 
reintegrate safely into urban settings. We continue to urge the Libyan 
government to enhance protections for migrants and refugees in its 
territory.

    Question. What oversight are you exercising with UNHCR to ensure 
our funding is providing protection, including safe shelters outside 
the conflict?

    Answer. We maintain regular and ongoing dialogue with and oversight 
of UNHCR and other partners at all levels, engaging with them in 
Washington, directly on the ground in Tunis, as well as at partner 
headquarters in Geneva. We monitor partner activities closely and 
gather supplemental information from a wide range of actors working in 
Libya to ensure we have a full understanding of the operational 
context. Our partners are consistently transparent in communicating 
with us, sharing both progress and setbacks, and make every effort to 
implement safe shelter and other programs to the best of their ability. 
We will continue to ensure that our oversight and feedback processes 
are in place and effective, and that our partners are providing 
protection to the most vulnerable refugees, asylum seekers, and 
migrants.

    Question. Please describe what the U.S. is doing to work with the 
EU to end systemic abuse of migrants and refugees fleeing from Libya?

    Answer. Since 2015, the European Union has provided billions of 
dollars to address root causes of migration throughout Africa as well 
as to curb the irregular flow of migrants through Libya. The EU works 
with international partners such as the International Organization for 
Migration (IOM) and United Nations High Commissioner for Refugees 
(UNHCR) to support the protection and humanitarian needs of migrants 
and refugees within and departing Libya. The United States supports 
this approach and maintains open dialogue with the EU on funding and 
programing priorities. In FY 2019 the United States provided over $28 
million in humanitarian assistance through implementing partners in 
Libya.
                               __________

Responses of Hon. David Schenker and Christopher Robinson to Questions 
                  Submitted by Senator Lindsey Graham

    Question. Assistant Secretary Schenker and Mr. Robinson, 
significant numbers of Russian military and contractor forces have been 
deployed in support of the Libyan National Army (LNA) in opposition to 
the recognized, legitimate government in Libya:

    How does Russia benefit from the destabilizing presence in Libya, 
and how does their interference impact our operations in Africa?

    Answer. Through its presence in Libya, which includes significant 
numbers of mercenaries, including from the Kremlin-linked Wagner Group, 
Russia seeks to dictate the political outcomes there, reestablish 
economic interests lost after the 2011 revolution, gain a position from 
which it can further threaten NATO's southern flank, and establish a 
platform to extend its influence in Africa and the Mediterranean. 
Russia's destabilizing actions have intensified the conflict, 
increasing the likelihood of greater instability that could negatively 
affect U.S. interests in the region.

    Question. Assistant Secretary Schenker and Mr. Robinson, with 
Chinese influence increasing across the African continent, how does the 
expanding Chinese Economic investment in Libya impact U.S. interests in 
Libya and in Africa?

    Answer. Prior to 2011, China invested in Libya's energy, 
telecommunications, and infrastructure sectors. Huawei developed 
Libya's telecommunications infrastructure and remains closely connected 
with Libya's two mobile networks. Although China has expressed interest 
in reviving these commercial contracts, it has largely been unable to 
do so given persistent instability in Libya.
    We are working with Libyans and external actors to achieve the 
security necessary to unleash Libya's significant economic potential. 
At the same time, we continue our economic dialogues with Libyan 
authorities on a reform agenda that prioritizes the transparency U.S. 
companies need to thrive in Libya. The U.S. government facilitates 
compromise among Libyans on thorny economic issues, and our leadership 
role makes us well placed to counter harmful Chinese economic practices 
in the future. We meet regularly with U.S. businesses that remain 
invested in Libya, and advocate with Libyan authorities on the issues 
that matter most to our businesses. We will continue to lay the 
groundwork for American businesses to partner with Libya on its 
economic development.
                               __________

Responses of Hon. David Schenker and Christopher Robinson to Questions 
                Submitted by Senator Benjamin L. Cardin

                            berlin agreement
    U.N. Ambassador Kelly Craft called for participants in the Jan. 19 
Berlin Conference to abide by their commitments to maintain a truce and 
support UNSMIL-led negotiations. We have seen renewed fighting since, 
and neither the LNA nor the GNA committed to a ceasefire or the 55-
point Berlin communique:

    Question. [for Schenker and Robinson]

    What is the status of efforts to secure a U.N. Security Council 
resolution endorsing the Berlin principles?

    Answer. The Security Council is expected to vote on the adoption of 
the UK-drafted UNSC resolution on Libya on the evening of February 12. 
We expect the resolution to pass, albeit with an anticipated Russian 
abstention.

    Question. [for Schenker and Robinson]

    What contributions might the U.S. government make to 
demobilization, disarmament, and integration programs foreseen by the 
Berlin agreement?

    Answer. The draft U.N. Security Council resolution for Libya 
requests the U.N. Secretary-General take forward the tasks ascribed to 
UNSMIL in the operationalization annex to the Berlin Conference 
Conclusions and make recommendations to the Security Council on the 
options reflected in this annex. Once these recommendations are 
finalized, we will be able to determine what contributions we can make 
towards the programs outlined in the Berlin Conference Conclusions.

    Question. What is the Department doing to encourage participation 
by European allies in efforts to de-escalate the conflict?

    Answer. [for Robinson]. We are engaged in constant diplomatic 
discussions with our European allies, particularly the United Kingdom, 
France, Turkey, and Italy, on a bilateral basis as well as in 
multilateral fora such as the Berlin conference and in the U.N. 
Security Council. Libya is geographically proximate to Europe. It poses 
direct immigration and security challenges to Europe. We have 
encouraged Europeans to bear their share of the burden of enforcing the 
arms embargo, and also using their own influence with Turkey, the UAE, 
and Russia to persuade those countries to stop fueling the conflict and 
withdraw their forces from Libya.

    Question. [for Schenker]

    What prospects are there for a ``Libyan-led political process'' if 
neither Libyan party in the conflict can agree on common principles?

    Answer. Negotiations among Libyans need to address multiple 
difficult issues: the dismantling of non-state armed groups, militias 
that operate with impunity, the rooting out of extremist elements, and 
the reunification and reformation of Libya's economic institutions to 
ensure equitable distribution of Libya's resources. While the 
perspectives of the Government of National Accord and Libyan National 
Army are a necessary part of intra-Libyan discussions, other Libyan 
voices also must be heard. The U.N. Special Representative of the 
Secretary-General plans a political process bringing together 
representatives of the House of Representatives, the High State 
Council, and additional representatives that will reflect Libya's 
geographic, ethnic and political diversity.
                              arms embargo
    The U.N. arms embargo has been violated by nearly every 
international supporter of the GNA and LNA, despite protests by the 
U.N. Secretary General and remarks by Ambassador Craft calling for 
violators to face ``real consequences:''

    Question. [for Schenker and Robinson]

    What actions is the administration willing to take to improve the 
enforcement of the U.N. arms embargo?

    Answer. The United States attended the Berlin Conference convened 
on January 19, which emphasized the importance of progress towards a 
political solution to end the conflict in Libya. The conclusions of the 
conference highlighted the commitment of participants to refrain from 
interference in the armed conflict and to abide by the arms embargo. 
Since the Berlin Conference, the United States has supported two United 
Nations Security Council Resolutions, which reaffirm strong support for 
the arms embargo. The resolutions stress that individuals or entities 
who breach the arms embargo, or assist others in doing so, are subject 
to designation under the Libya sanctions regime (1970). Proposals to 
designate for U.N. sanctions individuals or entities that breach the 
arms embargo can be blocked by a single member of the U.N. Sanctions 
Committee (such as Russia). The United States has called for strict 
implementation of the arms embargo, and accountability for violators, 
and supports the recent EU decision to launch a new maritime operation, 
to include aerial and satellite assets, focused on strengthening 
implementation of the arms embargo. The Department has engaged with a 
number of countries suspected of having violated the embargo in order 
to encourage them to return to compliance, accept that there is no 
durable military solution to the conflict, and support a negotiated 
political solution to the conflict.

    Question. [for Schenker and Robinson]

    What efforts is the department recommending, if any, to confront 
countries who are violating the arms embargo?

    Answer. The Department recognizes that adherence to the arms 
embargo is a crucial element in creating an environment in which a 
political solution can be negotiated. Many countries that participated 
in the Berlin summit pledged to refrain from sending arms to Libya but 
continue to violate the arms embargo. The Department is working in the 
U.N. sanctions committee to ensure that reports of the Panel of Experts 
contain clear conclusions based on substantiated facts. Germany is the 
chair of the committee and Chancellor Merkel has vowed to ``name 
names.'' On enforcement, the Department has encouraged EU member states 
to act. We support all steps that will reduce the flow of foreign 
military equipment and personnel to Libya. For the arms embargo to be 
effective it must cover all avenues through which weapons are provided 
to Libya and the Department will continue to press European partners 
and the sanctions committee to ensure that the embargo is enforced 
uniformly. The Department continues to engage diplomatically with a 
number of countries that are suspected of violating the embargo in 
order to encourage them to return to compliance, accept that there is 
no durable military solution to the conflict, and support a negotiated 
political solution.

    Question. [for Schenker and Robinson]

    Which countries' arms shipments bear the most significant 
responsibility for inflicting civilian casualties and prolonging the 
conflict?

    Answer. There is no military solution to the conflict, and all 
countries that violate the arms embargo are prolonging the conflict. We 
are urging all external actors to deescalate and use their influence to 
support GNA and LNA participation in the U.N.'s joint military 
commission meetings in Geneva as a first step toward securing a 
sustainable ceasefire and renewed political process.
                               ceasefire
    Despite participation of concerned states in the Berlin process, a 
ceasefire between the GNA and LNA has proved elusive, leading to a 
protracted stalemate that will only increase danger, displacement, and 
urgent humanitarian needs for civilians stranded in the conflict zone:

    Question. [for Schenker and Robinson]

    What types and amounts of support is the administration willing to 
provide to enable monitoring and verification of any ceasefire that 
emerges from U.N.-facilitated negotiations?

    Answer. The draft UNSC resolution calls for the U.N. Secretary-
General to submit a report to the Security Council on the necessary 
conditions for, and proposals on, effective ceasefire monitoring under 
the auspices of the U.N. The Secretary-General will likely provide 
several different options for monitoring that would have to be further 
discussed and agreed upon by the Security Council. Once these options 
are finalized, we will be able to determine what support we will be 
able to offer.

    Question. [for Schenker and Robinson]

    How capable are U.S. partners in North Africa, Europe, and Africa 
of providing ceasefire monitoring, arms embargo enforcement, and 
security sector reform assistance? What financial, material, or 
personnel support might they require from the United States?

    Answer. The draft U.N. Security Council resolution calls for the 
U.N. Secretary-General to submit a report to the Security Council on 
the necessary conditions for, and proposals on, effective ceasefire 
monitoring under the auspices of the U.N. The Secretary-General will 
likely provide several different options for monitoring that would have 
to be further discussed and agreed upon by the Security Council. At 
this time, it is not clear what resources will be required. Libya is 
geographically proximate to Europe. It poses direct immigration and 
security challenges to Europe. While the United States will pursue its 
interests, it will also be incumbent on the Europeans to undertake 
their share of the work.

    Question. [for Schenker]

    What, in your view, are the key issues that need to be resolved in 
order for a ceasefire to be agreed? How insistent are GNA officials 
that the LNA return to its pre-April 2019 positions? What 
preconditions, if any, are the LNA placing on the ceasefire 
negotiations?

    Answer. Subjects of discussion in ongoing ceasefire talks include 
confidence building measures, such as exchanges of prisoners, returns 
of mortal remains, and expediting the return of Internally Displaced 
Persons to their homes, as well as a process to disarm, demobilize and 
reintegrate non-state armed actors. LNA leader Khalifa Haftar has 
maintained that a lasting ceasefire could only be attained once Turkish 
and Turkish-backed Syrian fighters withdraw from Libya, militias are 
disarmed, Libya's resources are distributed equitably, and `terrorists' 
surrender. The GNA has consistently called for the LNA to redeploy its 
forces to pre-April 2019 positions. Nevertheless, each side has 
furnished its five military officials to participate in U.N.-hosted 
``5+5'' proximity talks currently underway in Geneva. The United 
Nations hopes that points of convergence can be identified in these 
that will allow the parties to eventually transform a fragile and 
unreliable truce into a formal ceasefire agreement that would include 
mechanisms for addressing longer-term core security concerns.
                         russian aims in libya
    Question. [for Schenker and Robinson]

    Given Russia's robust support for Haftar and the LNA, how does U.S. 
policy in Libya feed into AFRICOM's 2020 posture statement stating that 
the command must ``prioritize great power competition'' with China and 
Russia?

    Answer. Russia's destabilizing activities in Libya are deeply 
concerning and threaten the interests of the United States and our 
allies. The administration has prioritized great power competition in 
its foreign policy, as demonstrated in the National Security Strategy 
and National Defense Strategy. The Department works closely with the 
Department of Defense, including AFRICOM, to counter Russian malign 
activities in Africa. The Department of Defense is best positioned to 
answer specific questions regarding the posture of its combatant 
commands.

    Question. [for Schenker and Robinson]

    What is Russia's ultimate objective in supporting Haftar? Are they 
seeking a strategic presence on Libya's Mediterranean coast, or are 
they content with shorter term economic gains?

    Answer. Through its presence in Libya, which includes significant 
numbers of mercenaries, including from the Kremlin-linked Wagner Group, 
Russia seeks to dictate political outcomes in Libya, reestablish 
economic interests lost after the 2011 Revolution, and gain a position 
from which it can exert influence on NATO's southern flank. Russia's 
provocations have intensified the conflict, increasing the likelihood 
of greater instability that could negatively impact U.S. interests in 
the region.

    Question. Is there any prospect of Russia supporting a UNSC 
resolution to curb violence in Libya, or should we expect the same 
consistent obstruction they have shown in Syria (frequently abetted by 
China)?

    Answer. [for Robinson]: Russia has consistently sought to delay the 
process of adopting a U.N. Security Council resolution on Libya since 
the UK introduced the text post-Berlin. Russia's tactics have been less 
heavy-handed than on Syria, however, as we believe it recognizes the 
strong overall support for a Libya resolution in the Security Council, 
including from China and South Africa. While Russia has sought to delay 
the adoption of the text through unhelpful edits, ultimately, we expect 
Russia to allow the resolution to pass by abstaining on, rather than 
vetoing, the text.

    Question. [for Robinson]

    How can the United States effectively advocate for a de-escalation 
of the conflict if we are not present; particularly given Russia's very 
pronounced presence?

    Answer. The Libya External Office (LEO) in Tunis, under the 
leadership of Ambassador Norland, is focused on balanced and pragmatic 
engagement with all sides of the Libya conflict in order to achieve a 
lasting end to the violence and strengthen U.S.-Libya counterterrorism 
and energy cooperation. The LEO team meets regularly with Libyan 
political, economic, and security leaders to advance U.S. priorities, 
and U.S. diplomats communicate directly with the Libyan people through 
extensive public engagements and exchange programs. The Department is 
continually assessing options for the resumption of more regular U.S. 
diplomatic activities in Libya. The State Department also continues to 
engage external actors involved in Libya to abide by the commitments 
made in Berlin and stop fueling the conflict.
                    free syrian army forces in libya
    In addition to deploying Turkish forces to Libya to pursue security 
cooperation with the GNA, Ankara has reportedly sent approximately 
2,000 Syrian fighters in Libya, ostensibly in the direct employ of the 
GNA:

    Question. [for Schenker and Robinson]

    NEA clear with EUR, what accountability exists for actions of the 
Syrian forces Turkey is sending to Libya?

    Answer. We oppose the use of foreign forces in Libya. This includes 
Turkish-backed Syrians and we continue to emphasize these concerns to 
both Turkey and the Libyan Government of National Accord. We also 
emphasize with all stakeholders, both Libyan and external, the need for 
accountability.
    Through our U.S. assistance we seek to promote good governance, and 
empower civil society and journalists to expose abuses and demand 
accountability.

    Question. [for Schenker and Robinson]

    How widely do you expect the supporters of the GNA and LNA to 
expand the participation of paid mercenaries in this conflict, and what 
obstacles does this approach pose to achieving a sustainable ceasefire?

    Answer . The United States opposes all participation of mercenaries 
in the Libyan conflict. Following Berlin, we have joined our voice at 
the U.N. Security Council in a resolution reinforcing the U.N. arms 
embargo, and calling for mercenaries to leave Libya. These mercenaries 
include the Kremlin-linked Wagner Group.

    Question. [for Robinson]

    What efforts is the Department taking to discourage Turkey's 
destabilizing influence in Libya?

    Answer. The United States opposes all destabilizing foreign 
influence in Libya, which is prolonging the suffering of the Libyan 
people. We emphasize in our highest-level interactions that Turkey must 
uphold its commitments made at the Berlin Conference, to include 
respecting the U.N. arms embargo. We are urging all countries involved 
in Libya, including the UAE and Turkey, to deescalate the conflict and 
use their influence to support a sustainable ceasefire and renewed 
political process. We support the U.N. Special Representative's work to 
promote a Libyan-led and Libyan-owned political process, free from 
harmful foreign intervention.
                   human rights and global magnitsky
    Protracted armed clashes in Libya have left scores of thousands 
displaced inside Libya and interrupted access to basic services such as 
healthcare and electricity. Militias and armed groups, often with links 
to the competing governments, harass and persecute civilians with 
impunity, and carry out arbitrary detention, torture, unlawful 
killings, indiscriminate attacks, disappearances, seizure of property 
and forced displacement:

    Question. [for Schenker]

    How might the administration use Global Magnitsky sanctions to 
target actors in Libya accused of violations of the law of armed 
conflict and international humanitarian law?

    Answer. We are deeply troubled by reports of violations of the law 
of armed conflict and international humanitarian law in Libya. In 
December 2019, the United States imposed sanctions on a senior 
commander in Haftar's forces, Mahmoud al-Werfalli, for his role in 
serious human rights abuse. In addition, Executive Order 13726 allows 
the administration to sanction persons who are involved in, or who have 
been involved in, the targeting of civilians through the commission of 
acts of violence, abduction, forced displacement, or attacks on 
schools, hospitals, religious sites, or locations where civilians are 
seeking refuge, or through conduct that would constitute a serious 
abuse or violation of human rights or a violation of international 
humanitarian law. We continue to work with the interagency to ensure 
that Global Magnitsky and other sanction authorities are deployed where 
appropriate.

    Question. [for Schenker]

    What plans does the Department of State, either alone or in 
collaboration with the U.N. have to ensure that atrocities and gross 
violations of human rights are accurately documented amidst the 
continued conflict in Libya?

    Answer. The United States has called for an immediate ceasefire and 
a return to Libyan-led, U.N.-facilitated political mediation to allow 
Libya to improve governance. Accountability for human rights violations 
and abuses will be a key component of a sustainable political solution 
to the conflict.
    In addition, the Department of State closely monitors reports of 
human rights violations and documents many of them in our annual 
Country Reports on Human Rights Practices section on Libya, as well as 
in various other Congressionally mandated reports.
    The U.N. Support Mission in Libya's Human Rights, Rule of Law, and 
Transitional Justice Directorate documents gross violations of human 
rights in Libya. The Department strongly supports UNSMIL's mandate and 
focus on human rights issues. The Department is aware of the work of 
several Libyan and international NGOs also working to document human 
rights violations and abuses.

    Question. [for Schenker]

    What effects might human rights concerns have on current or future 
U.S. security cooperation with Libya?

    Answer. The United States takes human rights concerns into 
consideration with regard to our policy and programming in Libya, 
particularly as they pertain to our security assistance. We strongly 
urge the internationally recognized government of Libya and all Libyan 
parties to respect human rights, and we are committed to ensuring that 
perpetrators of gross violations of human rights do not receive U.S. 
training or assistance. Accountability for human rights violations will 
be key to a sustainable political solution to the conflict.
                          u.s.-libya relations
    The U.S. needs a clearer vision for Libya, where a sudden frenzy of 
diplomacy is occurring with America playing only a marginal role. The 
U.S. also needs a policy for the fierce regional competition under way 
in the eastern Mediterranean, where a Russo-Turkish axis is forming. If 
not, America may find it increasingly difficult to pursue its 
objectives in either area.

    Question. [for Schenker]

    What is the status of planning for a future return to Libya of U.S. 
diplomats and other personnel?

    Answer. The Department is continually assessing options for the 
resumption of more regular U.S. diplomatic activities in Libya. The 
most important factors to resume a permanent U.S. diplomatic presence 
in Tripoli are the security situation and the availability of adequate 
facilities.

    Question. [for Schenker]

    How prepared is the department to return to Libya if a ceasefire is 
agreed and mediation efforts bear fruit?

    Answer. The United States suspended Embassy operations in Tripoli 
in July 2014 due to significant fighting in the capital. The safety and 
security of U.S. citizens, including U.S. government personnel, is our 
highest priority. The Libya External Office is continually assessing 
options to resume more regular diplomatic activities in the country.

    Question. [for Schenker]

    If they were joining us today, what message would you deliver to 
Khalifa Haftar and PM Fayez al Sarraj, respectively? What would you say 
to the Libyan people?

    Answer. We have repeatedly emphasized to all stakeholders that 
there is no durable military solution to the Libyan conflict. 
Ultimately, the Libyan people must resolve this crisis. Libyan leaders 
who are contributing to the ongoing conflict--and those who back them 
militarily--must establish and respect the truce, de-escalate to 
achieve a sustainable ceasefire, and refocus efforts on a Libyan-led 
political process. Negotiations need to seriously address difficult 
issues driving the conflict, including the dismantling of non-state 
armed groups--``militias''--that operate with impunity; the rooting out 
of extremist elements; and the reunification and reform of Libya's 
economic institutions to ensure transparency and the just distribution 
of Libya's resources.
                               __________

             Responses of Hon. David Schenker to Questions 
                     Submitted by Senator Ted Cruz

    America's nation-building projects have consistently failed, 
leaving behind countries shattered and overrun by terrorist 
organizations:

    Question. Please assess the degree to which either the Government 
of National Accord or the Libyan National Army are making progress in 
unifying Libya.

    Answer. No faction in Libya currently possesses the necessary 
legitimacy and military strength to impose its control over the 
country. Both the Government of National Accord (GNA) and the self-
styled Libyan National Army (LNA) rely on local armed groups of varying 
levels of allegiance to secure areas under their nominal control. As a 
result of these dynamics, only an inclusive, negotiated political 
solution involving a wide range of Libyan actors can bring unity and 
stability to Libya. The continuing violence has hardened positions on 
all sides and made finding a viable solution more difficult. 
Negotiations need to seriously address difficult issues driving the 
conflict, including dismantling non-state armed groups that operate 
with impunity; rooting out extremist elements; and reunifying and 
reforming Libya's economic institutions to ensure transparency and the 
just distribution of Libya's resources. Moving toward national 
reconciliation will take time.

    Question. Among the pitfalls associated with United States nation-
building projects, one of the most persistent--across military and non-
military efforts--has been that we end up providing money and weapons 
to governments that are controlled or unduly influenced by terrorist 
organizations, including the Palestinian and Lebanese governments:

    Please assess the degree to which the U.S.-backed Government of 
National Accord is linked to terrorist and/or Islamist organizations, 
including the Muslim Brotherhood.

    Answer. The United States recognizes the Government of National 
Accord (GNA) as Libya's government but does not support a military 
solution to the conflict in Libya. Both the GNA and the self-styled 
Libyan National Army (LNA) rely on coalitions of disparate armed groups 
for support. Some armed groups and political factions ideologically 
aligned with the Muslim Brotherhood have defended or supported the GNA, 
while others have violently opposed it. The LNA includes Salafist armed 
groups, which have imposed strict interpretations of Islamic law in 
areas the LNA claims to control.
                               __________

             Responses of Hon. David Schenker to Questions 
                  Submitted by Senator Cory A. Booker

    Question. What is your message to the UAE or Saudi (who are our 
allies) who may be trafficking of Sudanese fighters into Libya?

    Answer. Our message to these governments, and to all others who may 
be fueling the conflict in Libya is the same: now is the time to wind 
this conflict down. Libya is not the place for Russian mercenaries, or 
fighters from Syria, Chad, and Sudan. It is not the place for the 
Emiratis, Russians, or Turks to be fighting battles through 
intermediaries they sponsor or support with sophisticated and deadly 
equipment in pursuit of their own agendas.

    Question. How should these reports shape our decisions with regard 
to Sudan's State Sponsor of Terrorism designation and engagement with 
Hemeti?

    Answer. Sudan's new civilian-led government has enacted important 
reforms and taken steps to increase cooperation on a number of issues 
of importance to the United States. We encourage our Sudanese 
interlocutors, including General Hemeti and Sudan Liberation Army 
(opposition) chairman Minni Minawi and other Darfuri opposition leaders 
to serve as forces for peace, security, and stability. Hemeti insists 
that General Haftar has recruited members of the Rapid Support Forces 
(RSF) to serve in Libya and that they are there in personal capacities, 
not serving RSF members. Opposition leaders admit they have forces in 
Libya and have stated they will repatriate them to Sudan once they have 
reached peace agreements with Sudan's transitional government.
    In line with the relevant statutory criteria, when considering 
rescission of a State Sponsor of Terrorism (SST) designation, the 
Department of State reviews all available evidence to assess whether 
the relevant government is supporting acts of international terrorism 
and obtains assurances from the government that it will not support 
such acts in the future. The relevant government must demonstrate that 
it meets these statutory criteria and policy criteria for rescission 
before a determination is made regarding rescission of its SST 
designation.
                   uae and saudi trafficking fighters
    Question. The U.N. Panel of Experts for Libya has documented the 
role played by Sudanese fighters being recruited or trafficking into 
Libya. Most Sudanese fighters are supporting operations by Khalifa 
Haftar's LNA. There are reports that Saudi Arabia and the UAE have paid 
the Sudanese paramilitary commander General Mohamed Hamdan Dagalo (also 
known as Hemeti) for the deployment to Libya of Rapid Support Forces 
(RSF) troops under his command to fight for the LNA. In November 2019, 
the panel found Sudan and the general in non-compliance with the U.N. 
arms embargo:

    How will these reports be considered when rating Saudi Arabia and 
the UAE in the annual Trafficking in Persons report?

    Answer. The Department takes seriously any allegations of human 
trafficking, which includes official complicity in the recruitment and 
use of child soldiers or individuals subjected to trafficking in 
theaters of conflict. All credible reporting will be scrupulously 
reviewed and corroborated in advance of making tier ranking 
recommendations to the Secretary for the annual Trafficking in Persons 
Report. Tier rankings are determined after careful analysis of 
government efforts across the prosecution, protection, and prevention 
paradigm, in accordance with the Trafficking Victims Protection Act, as 
amended. The Department continues to engage all governments, including 
those of the United Arab Emirates and Saudi Arabia, on comprehensive 
efforts to combat the crime of human trafficking.

    Question. Will the administration support the call for the 
establishment of a[n International] Commission of Inquiry or similar 
mechanism for Libya?

    Answer. The administration is concerned that there has been a 
consistent deterioration in the humanitarian and human rights situation 
in Libya over the last year. We remain committed to supporting the 
Libyan people as they struggle for peace, prosperity, and democratic 
governance.
    The administration strongly supports promoting accountability for 
violations and abuses of human rights and violations of international 
humanitarian law in Libya, including through cooperation and 
information sharing with the U.N. Support Mission in Libya (UNSMIL), 
which is mandated, among other things, to monitor and report on human 
rights and coordinate international assistance.
    The United States voted in favor of the adoption of a U.N. Security 
Council resolution on the Libyan ceasefire on February 12. We also 
joined the U.N. in calling on parties to the conflict to live up to the 
commitments they made at the peace summit in Berlin in January and to 
continue to engage in a new round of ceasefire negotiations.
    Any ceasefire that is achieved must create space for serious and 
concrete discussions among Libyans about how to resolve the issues that 
have fueled the conflict, including accountability for violations and 
abuses of human rights and violations of international humanitarian 
law.
                               __________

            Responses of Christopher Robinson to Questions 
                  Submitted by Senator Robert Menendez

    Question. What steps are you taking to counter Turkey's aggression 
in the Eastern Mediterranean?

    Answer. We have been consistently clear with Turkey and other 
regional partners that all parties should refrain from actions that 
raise tensions in the Eastern Mediterranean and should resolve their 
disputes peacefully and in accordance with international law. In 
instances where the United States has had concerns regarding specific 
Turkish actions, we have engaged privately with Turkey, as well as 
issued press statements. For example, we stated publicly in December 
2019 that the memorandum of understanding on maritime delimitation 
between Turkey and the Libyan Government of National Accord raises 
tensions in the region and is unhelpful and provocative.

    Question. Are you engaging with Tunisia and Egypt on Eastern 
Mediterranean security specifically? If so, what steps have you taken 
and what steps will you take going forward?

    Answer. We engage with both Tunisia and Egypt about Eastern 
Mediterranean security under the broader umbrella of regional security. 
The United States and Tunisia share security goals, and Tunisia is a 
reliable security and counterterrorism partner in North Africa. We will 
continue to address regional security challenges with Tunisia on a 
bilateral basis through the annual Joint Military Commission, and now 
through multilateral channels at the United Nations, where Tunisia 
serves as an elected member of the Security Council. The United States 
and Egypt have a long history of regional security cooperation, 
including on counterterrorism, and will hold the annual bilateral 
Military Cooperation Committee (MCC) in March to advance shared 
security interests.

    Question. Russia's objectives in Libya are fairly straightforward: 
increasing its footprint in Africa and increasing access to the 
Mediterranean. Coupled with its efforts in Syria, Russia appears to be 
succeeding on both fronts.

    How does Russia's increased activity in Libya directly affect U.S. 
security interests?

    Answer. Through its presence in Libya, which includes significant 
numbers of mercenaries, including from the Kremlin-linked Wagner Group, 
Russia seeks to dictate the political outcomes in Libya, reestablish 
economic interests lost after the 2011 revolution, gain a position from 
which it can threaten NATO's southern flank, and establish a platform 
to extend its influence in Africa and the Mediterranean. Russia's 
destabilizing actions have intensified the conflict, increasing the 
likelihood of greater instability that could negatively impact U.S. 
interests in the region.

    Question. Given an increase in fighting between Turkish forces and 
Russian-backed Syrian forces in Idlib, can you please describe the 
dynamics you see driving Russian-Turkish cooperation elsewhere in the 
world; and specifically in Libya?

    Answer. The United States wishes to see the strongest possible 
relations with Turkey, our strategic partner and NATO Ally. Recent 
events in Idlib have made abundantly clear that Russia has no intention 
of honoring its deconfliction agreement with Turkey and will back at 
all costs the Assad regime's brutal campaign to achieve militarily 
victory, as evidenced by the despicable February 27 attack on Turkish 
forces in Idlib, which resulted in the death of multiple Turkish 
soldiers. Russia and Turkey back opposing sides in Libya, and their 
efforts to secure agreement between the warring sides have failed 
repeatedly. We are aware that Russia seeks to drive a wedge between 
NATO Allies. Our message to Turkey remains that Russia is an unreliable 
partner and is not looking out for Turkey's interests and that those 
interests are best secured through Turkey strengthening its traditional 
Western alliances.

    Question. What do you believe Russia's longer-term objectives are 
in Libya?

    Answer. The Kremlin seeks to use military power and the use of 
Russian-linked actors to impose its will on nations seeking to assert 
their independence and sovereignty. In Libya, Moscow is using Russian-
linked forces, such as Wagner, to exploit the conflict for its own 
narrow political and economic gain. Russia's longer-term aims include 
gaining access to military facilities in Libya; establishing a platform 
for malign influence operations in the Mediterranean and Africa; and 
obtaining natural resources deals granting Russian majority state-owned 
firms, such as Rosneft, greater control over Libya's energy resources.

    Question. Do you believe Russia will seek to weaponize migration 
flows as it has done in Syria?

    Answer. Although we have seen no indication of this to date in 
Libya, it is possible that Russia could seek to replicate its strategy 
from the conflict in Syria: exploiting refugee and migrant needs and 
compelling their movement toward Europe. An effort to exacerbate 
existing fractures in EU asylum and migration policies and to further 
polarize and destabilize Europe would be consistent with Russia's other 
malign activities.
                               __________

            Responses of Christopher Robinson to Questions 
                     Submitted by Senator Ted Cruz

    Question. On December 20, 2019, the President signed into law the 
National Defense Authorization Act (NDAA) for Fiscal Year 2020. Section 
7503 of the NDAA was a version of the bipartisan legislation authored 
by me and Sen. Shaheen imposing sanctions on vessels that engage in 
deep-sea pipe-laying for the Nord Stream 2 project. My bill, and the 
NDAA amendment based on it, was a scalpel designed to be narrow in the 
sense that it would target only vessels engaged in deep-sea pipe-
laying, but broad in the sense that it would target all such vessels, 
including vessels being used for the surveying, trench digging, and 
rock placement phases of pipe-laying:

    Can you assure me the State Department will robustly enforce 
Section 7503 against all such vessels?

    Answer. Section 7503 of the Protecting Europe's Energy Security Act 
of 2019 (PEESA) requires sanctions on foreign persons the Secretary of 
State, in consultation with the Secretary of the Treasury, determines 
have knowingly sold, leased, or provided vessels engaged in pipe-laying 
at a depth of 100 feet or more below sea level for the construction of 
the Nord Stream 2 pipeline project or the TurkStream pipeline project, 
unless subject to an applicable exception or the good-faith wind-down 
provision. The Department of State is faithfully implementing section 
7503.

    Question. On December 20, 2019, the President signed into law the 
National Defense Authorization Act (NDAA) for Fiscal Year 2020. Section 
7503 of the NDAA was a version of the bipartisan legislation authored 
by me and Sen. Shaheen imposing sanctions on vessels that engage in 
deep-sea pipe-laying for the Nord Stream 2 project. My bill, and the 
NDAA amendment based on it, requires the Secretary of State, in 
consultation with the Secretary of the Treasury, to submit a report not 
later than 60 days after the NDAA's date of enactment and every 90 days 
thereafter identifying all such vessels:

    Please detail the progress that has been made in composing that 
report, including specifically the progress the President has made in 
delegating relevant authorities and responsibilities to the Secretary 
of State.

    Answer. The White House delegated relevant authorities to the 
Secretary of State on February 21, 2020. The first report required 
under section 7503 has been delivered to Congress.
                               __________

            Responses of Christopher Robinson to Questions 
                  Submitted by Senator Cory A. Booker

                            russia in africa
    Russia has been steadily growing its influence in Africa by 
expanding its military and disinformation footprint.

    Question. What threat to U.S. security interests does the Russian 
presence in Libya pose?

    Answer.The Russian presence in Libya poses several threats to U.S. 
security interests. In Libya, Moscow is using Russian-linked forces, 
such as Wagner, to exploit the conflict and shape any eventual 
political settlement to advance the Kremlin's own narrow political and 
economic objectives. Russia's longer-term aims include gaining access 
to military facilities in Libya; establishing a platform for malign 
influence operations in the Mediterranean and Africa; and obtaining 
natural resources deals granting Russian majority state-owned firms, 
such as Rosneft, greater control over Libya's energy resources. 
Russia's destabilizing actions have intensified the conflict, 
increasing the likelihood of greater instability that could negatively 
impact U.S. interests in the region, including on NATO's southern 
flank.
    Question. How do you see the great power competition playing out in 
Africa?

    Answer. Countries around the globe can play a role as a source of 
capital and knowledge for African development, but they must apply the 
highest international standards of openness, inclusivity, transparency, 
and governance. Transparent, high standard, and secure activities, 
which respect national sovereignty, can contribute to regional 
prosperity. However, we will push back--with our regional partners--
when Russia, China, or anyone else undermines global norms and 
standards, national sovereignty, or shared interests and values. Our 
message to our African partners, as Secretary Pompeo has stated, is 
that the United States private sector stands for local jobs, 
environmental responsibility, honest business practices, high-quality 
work, and mutual prosperity.

                                  <all>
</pre></body></html>
